<html>
<title> - LEGISLATING TO SAFEGUARD THE FREE AND OPEN INTERNET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          LEGISLATING TO SAFEGUARD THE FREE AND OPEN INTERNET

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2019

                               __________

                           Serial No. 116-15
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-312 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                       
                        
                        
                        

                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
             Subcommittee on Communications and Technology

                        MIKE DOYLE, Pennsylvania
                                 Chairman
JERRY McNERNEY, California           ROBERT E. LATTA, Ohio
YVETTE D. CLARKE, New York             Ranking Member
DAVID LOEBSACK, Iowa                 JOHN SHIMKUS, Illinois
MARC A. VEASEY, Texas                STEVE SCALISE, Louisiana
A. DONALD McEACHIN, Virginia         PETE OLSON, Texas
DARREN SOTO, Florida                 ADAM KINZINGER, Illinois
TOM O'HALLERAN, Arizona              GUS M. BILIRAKIS, Florida
ANNA G. ESHOO, California            BILL JOHNSON, Ohio
DIANA DeGETTE, Colorado              BILLY LONG, Missouri
G. K. BUTTERFIELD, North Carolina    BILL FLORES, Texas
DORIS O. MATSUI, California, Vice    SUSAN W. BROOKS, Indiana
    Chair                            TIM WALBERG, Michigan
PETER WELCH, Vermont                 GREG GIANFORTE, Montana
BEN RAY LUJAN, New Mexico            GREG WALDEN, Oregon (ex officio)
KURT SCHRADER, Oregon
TONY CARDENAS, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, prepared statement....................................     4
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     8
    Prepared statement...........................................    10

                               Witnesses

Francella Ochillo, Vice President of Policy and General Counsel, 
  National Hispanic Media Coalition..............................    13
    Prepared statement...........................................    15
Gregory Green, Cofounder and Chief Executive Officer, Fatbeam....    22
    Prepared statement...........................................    24
    Answers to submitted questions...............................   219
Robert M. McDowell, Senior Fellow, Hudson Institute, Partner, 
  Cooley LLP.....................................................    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................   221
Matthew F. Wood, Vice President of Policy and General Counsel, 
  Free Press Action Fund.........................................    42
    Prepared statement...........................................    44
    Answers to submitted questions...............................   225

                           Submitted Material

Letter of May 5, 2010, from Robert M. McDowell, Commissioner, 
  Federal Communications Commission, to Hon. Henry A. Waxman, 
  Chairman, House Committee on Energy and Commerce, submitted by 
  Mr. Latta......................................................   121
Dissenting statement of 2008 and 2010, from Robert M. McDowell, 
  Commissioner, Federal Communications Commission,   submitted by 
  Mr. McNerney...................................................   125
Article of December 14, 2017, ``Net Neutrality, for and 
  Against,'' The Wall Street Journal, submitted by Mr. McNerney..   165
Letter of March 11, 2019, from Joseph Franell, Chief Executive 
  Officer, Eastern Oregon Telecom, to Mr. Walden, submitted by 
  Mr. Walden.....................................................   168
Letter of February 8, 2019, from Dr. J. Michel Guite, Chairman, 
  Vermont Telephone Co., to Mr. Welch, submitted by Mr. Flores...   170
Tweets from Washington State Delegation Members, submitted by 
  Mrs. Rodgers...................................................   173
Editorial of March 11, 2019, ``Restore net neutrality? Congress 
  has an opportunity,'' Houston Chronicle, submitted by Mr. Doyle   175
Article of February 27, 2019, ``A(nother) chance for Congress on 
  net neutrality,'' by Ev Ehrlich, The Hill, submitted by Mr. 
  Doyle..........................................................   177
Article of March 6, 2019, ``The Democrats' net neutrality bill is 
  political virtue signaling at it worst,'' by Jon Healey, Los 
  Angeles Times, submitted by Mr. Doyle..........................   179
Letter of March 5, 2019, from Rosa Mendoza, President and Chief 
  Executive Officer, ALLvanza, to Mr. Pallone, et al., submitted 
  by Mr. Doyle...................................................   182
Statement of Rosa Mendoza, President and Chief Executive Officer, 
  ALLvanza, submitted by Mr. Doyle...............................   185
Statement of Meredith Attwell Baker, President and Chief 
  Executive Officer, Cellular Telecommunications Industry 
  Association, March 6, 2019, submitted by Mr. Doyle.............   187
Statement of NCTA, March 6, 2019, submitted by Mr. Doyle.........   189
Statement of Jonathan Spalter, President and Chief Executive 
  Officer, USTelecom--The Broadband Association, March 6, 2019, 
  submitted by Mr. Doyle.........................................   190
Tweet of March 6, 2019, by Former Republican Rick Boucher, 
  submitted by Mr. Doyle.........................................   193
Article of March 6, 2019, ``Pelosi, Schumer Unveil Democratic Net 
  Neutrality Bill (1),'' by Jon Reid, Bloomberg Law, submitted by 
  Mr. Doyle......................................................   194
Article of March 7, 2019, ``E & C's top Republican sets sights on 
  tech industry liability shield,'' by John Hendel, Politico Pro, 
  submitted by Mr. Walden........................................   196
Editorial of March 8, 2019, ``Democrats want to `Save the 
  Internet.' They'll need Republicans' help.'' Washington Post, 
  submitted by Mr. Doyle.........................................   197
Article of February 27, 2019, ``Congress can finally get it 
  right: Pass the Save the Internet Act,'' by Ed Black, The Hill, 
  submitted by Mr. Doyle.........................................   199
Article of March 11, 2019, ``A permanent solution to net 
  neutrality for rural Oregon,'' by Joseph Franell, East 
  Oregonian, submitted by Mr. Doyle..............................   201
Article of March 25, 2016, ``Updated: Netflix Gets Hammered Over 
  `Throttling,' '' by John Eggerton, Multichannel, submitted by 
  Mr. Doyle......................................................   205
Letter of March 12, 2019, from Berin Szoka, President, and James 
  Dunstan, General Counsel, TechFreedom, to Mr. Doyle and Mr. 
  Latta, submitted by Mr. Doyle..................................   208

 
          LEGISLATING TO SAFEGUARD THE FREE AND OPEN INTERNET

                              ----------                              


                        TUESDAY, MARCH 12, 2019

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:00 a.m., in 
room 2322 Rayburn House Office Building, Hon. Mike Doyle 
(chairman of the subcommittee) presiding.
    Members present: Representatives Doyle, McNerney, Clarke, 
Loebsack, Veasey, McEachin, Soto, O'Halleran, Eshoo, DeGette, 
Butterfield, Matsui, Welch, Lujan, Schrader, Cardenas, Dingell, 
Pallone (ex officio), Latta (subcommittee ranking member), 
Shimkus, Olson, Bilirakis, Long, Flores, Brooks, Walberg, 
Gianforte, and Walden (ex officio).
    Also Present: Representative Rodgers.
    Staff present: AJ Brown, Counsel; Jeffrey C. Carroll, Staff 
Director; Jennifer Epperson, FCC Detailee; Evan Gilbert, Press 
Assistant; Waverly Gordon, Deputy Chief Counsel; Tiffany 
Guarascio, Deputy Staff Director; Alex Hoehn-Saric, Chief 
Counsel, Communications and Technology; Jerry Leverich, 
Counsel; Dan Miller, Policy Analyst; Phil Murphy, Policy 
Coordinator; Kaitlyn Peel, Digital Director; Chloe Rodriguez, 
Policy Analyst; Mike Bloomquist, Minority Staff Director; Robin 
Colwell, Minority Chief Counsel, Communications and Technology; 
Jordan Davis, Minority Senior Advisor; Kristine Fargotstein, 
Minority Detailee, Communications and Technology; Margaret 
Tucker Fogarty, Minority Staff Assistant; Peter Kielty, 
Minority General Counsel; and Tim Kurth, Minority Deputy Chief 
Counsel, Communications and Technology.
    Mr. Doyle. The Subcommittee on Communications and 
Technology will now come to order and the Chair recognizes 
himself for 5 minutes for an opening statement.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    I am very pleased to welcome everyone to the Subcommittee 
on Communication and Technology's first legislative hearing of 
this new Congress.
    Today, we will be discussing the Save the Internet Act, 
which I introduced last week along with 132 of our colleagues 
here in the House.
    First, this legislation would restore popular, bipartisan, 
common sense net neutrality protections and put a cop back on 
the beat to protect consumers, small businesses, and 
competitors from unjust and unreasonable practices by internet 
service providers.
    Second, this bill would give the FCC the authority to 
protect consumers now and in the future through forward-looking 
regulatory authority.
    Third, this bill would restore the commission's legal 
authority to support broadband access and deployment programs 
through the Universal Service Fund. These programs pay for the 
deployment of broadband in rural communities through the 
Connect America Fund and support access to working families, 
seniors, and veterans through the Lifeline program.
    The Save the Internet Act would enact permanent, effective 
net neutrality protections into law by codifying the FCC's 2015 
Open Internet Order as a new free-standing section of law. That 
would ensure the internet remains an open platform for 
innovation and competition, regardless of political changes at 
the FCC.
    By authorizing the order as a free-standing part of the 
U.S. Code, this legislation also permanently prevents the FCC 
from applying 27 sections of Title II of the Communications Act 
as well as over 700 regulations, which is the majority of Title 
II, to internet service providers.
    The bill also permanently prohibits the FCC from engaging 
in rate regulation or requiring broadband providers unbundle 
their network.
    Last but not least, the Save the Internet Act restores the 
commission's ability to police unjust and unreasonable 
practices by ISPs. The approach that we are discussing here 
today charts a new course for net neutrality and puts in place 
21st century rules for a 21st century internet.
    In doing so we remove much of the regulatory overhang of 
Title II that ISPs and our colleagues on the other side of the 
aisle have long complained about.
    Opponents of this legislation need to explain to their 
constituents which unjust and unreasonable practices they want 
ISPs to engage in and why they want to allow such practices.
    Americans, broadly and overwhelmingly, support these rules. 
Polls have shown that 88 percent of Republicans, Independents, 
and Democrats support restoring strong net neutrality 
protections.
    This bill is a new approach and an open invitation to our 
colleagues and ISPs alike to come together and support a new 
way forward, because a free and open internet is critical for 
so many communities and sectors of our economy and because 
broadband connectivity touches almost every aspect of our 
economy, politics, and culture.
    I encourage my colleagues on the other side of the aisle to 
seriously consider this legislation. Whether you are a rural 
broadband provider based in Idaho, like Mr. Green's company, 
Fatbeam, or you are working to ensure that minority and 
underrepresented voices get heard online, like Ms. Ochillo's 
organization, or you have heard from millions of constituents 
who have called or emailed their elected representatives, the 
message the people are sending us is clear.
    We need to restore strong net neutrality rules and that is 
exactly what this bill does. Together, we hope to advance this 
legislation through the Congress and restore these essential 
protections for all Americans.
    I would also like to remind my friends and particularly my 
friends on the other side of the aisle that this is the bill 
that is before the committee today and this is the issue we are 
discussing.
    I am happy to talk to Members about other issues at the 
appropriate time for them to be brought before the 
subcommittee. But for today, this bill is the subject of our 
discussion.
    [The prepared statement of Mr. Doyle follows:]

                 Prepared Statement of Hon. Mike Doyle

    I am very pleased to welcome everyone to the Subcommittee 
on Communication and Technology's first legislative hearing of 
this new Congress.
    Today, we will be discussing the Save the Net Act, which I 
introduced last week along with 132 of our colleagues here in 
the House.
    This legislation would restore popular, bipartisan, common 
sense net neutrality protections--and put a cop back on the 
beat to protect consumers, small businesses, and competitors 
from unjust and unreasonable practices by Internet Service 
Providers.
    In addition, this bill would give the FCC the authority to 
protect consumers now and in the future through forward-looking 
regulatory authority.
    Finally, the bill would restore the commission's legal 
authority to support broadband access and deployment programs 
through the Universal Service Fund.
    These programs pay for the deployment of broadband in rural 
communities through the Connect America Fund--and support 
access to working families, seniors, and veterans through the 
Lifeline program.
    The Save the Internet Act would enact permanent, effective 
Net Neutrality protections into law by codifying the FCC's 2015 
Open Internet Order as a new free-standing section in the U.S. 
Code.
    That would ensure the internet remains an open platform for 
innovation and competition, regardless of political changes at 
the FCC.
    By authorizing the order as a free-standing part of the 
U.S. Code, this legislation also permanently prevents the FCC 
from applying 27 sections of the Communications Act as well as 
over 700 regulations, the majority of Title 2, to Internet 
Service Providers.
    The bill also permanently prohibits the FCC from engaging 
in rate regulation or requiring that broadband providers 
unbundle their network.
    Lasts, but not least, the Save the Internet Act restores 
the commission's ability to police unjust and unreasonable 
practices by ISPs.
    The approach that we're discussing here today charts a new 
course for Net Neutrality, and puts in place 21st Century rules 
for a 21st Century internet.
    In doing so we remove much of the regulatory overhang of 
Title 2 that ISPs and our colleagues on the other side of the 
aisle have long complained about.
    Opponents of this legislation need to explain to their 
constituents which unjust and unreasonable practices they want 
ISPs to engage in--and why they want to allow such practices.
    Americans broadly and overwhelmingly support these rules. 
Polls have shown that 88% of Republicans, Independents, and 
Democrats support restoring strong Net Neutrality protections.
    This bill is a new approach, and an open invitation to our 
colleagues and ISPs alike to come together and support a new 
way forward--because a free and open internet is critical for 
so many communities and sectors of our economy, and because 
broadband connectivity touches almost aspect of our economy, 
politics, and culture.
    I encourage my colleagues on the other side of the aisle to 
seriously consider this legislation.
    Whether you are a rural broadband provider based in Idaho 
like Mr. Green's company Fatbeam, or you are working to ensure 
that minority and under-represented voices get heard online 
like Ms. Ochillo's organization, or you have heard from the 
millions of constituents who have called or emailed their 
elected representatives, the message people are sending is 
clear.
    We need to restore strong Net Neutrality rules, and that is 
exactly what this bill does.
    Together we hope to advance this legislation through the 
Congress and restore these essential protections for all 
Americans.
    I would also like to remind Members, and particularly my 
friends on the other side of the aisle that this is the bill 
that is before the committee today, and this is the issue we 
are discussing.
    I'm happy to talk to Members about other issues and the 
appropriate time for them to be brought before the 
subcommittee, but for today this bill is the subject of our 
discussion.

    And with that, 29 seconds remaining, I would now like to 
represent my friend and colleague, Mr. Latta, the ranking 
member of the subcommittee, for 5 minutes for his opening 
statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
good morning to our witnesses for being with us today. I am 
glad you are here.
    I am always happy to be here with my colleagues and learn 
more from the real experts on important issues in the telecom 
space. I have to admit I am confused why we need to spend 
another entire hearing on net neutrality less than a month 
after talking about the same thing.
    In the meantime, the majority has introduced essentially 
the same bill that has already failed to garner the support of 
their entire caucus as a CRA in the last Congress.
    Make no mistake, there are a lot of different ways for 
Congress to go about protecting consumers with permanent net 
neutrality rules.
    For example, the bill I introduced last month is based on 
Chairman Waxman's approach in 2010 and my colleagues, 
Republican Leader Walden and Mrs. Rodgers, offered two more 
bills based on the rules from FCC's 2015 order and Washington 
State's bipartisan legislation of 2018.
    These bills all originated from Democratic net neutrality 
proposals or laws. Anyone interested in a bipartisan 
legislative solution would consider each of them to be a 
reasonable starting point for real discussion.
    In contrast, the majority came to that hearing with no 
ideas. Since that time, we have not heard a word from them 
until they were ready to announce yet another net neutrality 
hearing.
    Worst of all, instead of engaging with us to try to solve 
the problem, my colleagues have retrenched back to the most 
extreme position in this debate.
    The idea that only Title II is real net neutrality is 
dangerous and wrong. Those who are newer to the subcommittee or 
to this debate should not be fooled.
    You have heard over and over again that we need to protect 
consumers from blocking, throttling, and internet fast lanes, 
which sounds reasonable enough.
    Well, we can easily do all of these--of this without giving 
the Government free rein over the internet through the specter 
of Title II.
    Everyone who has followed this net neutrality debate or on 
even the most superficial level is aware that Title II is a 
nonstarter with Republicans, and even with some Democrats. It 
has no chance of even passing the Senate or being signed into 
law.
    Yet, here we are, in a repetitive hearing followed by a 
string of partisan victories that will simply ensure that 
anyone--if that anyone digs in further and nothing meaningful 
ever gets done to protect consumers.
    Even if there were a chance that the majority's Title II 
bill would become law, we now know unequivocally that it would 
be the wrong direction for rural America.
    As we heard from Mr. Franell at the last hearing and from 
countless other rural carriers as well, Title II was a 
devastatingly investment killer for small ISPs who need to be 
expanding to serve more of our constituents of rural America.
    At that hearing, so many Members on both sides of the aisle 
engaged Mr. Franell with questions and concerns about this 
impact. There seemed to be an overwhelming bipartisan interest 
in working to close the digital divide and get modern broadband 
service out to the communities that are being left behind.
    So, why aren't we spending our time working together on 
that instead of putting the crushing regulatory regime of Title 
II back onto the folks we need to be out there investing and 
expanding? It makes no sense.
    I look forward to hearing from our witnesses today and with 
that, Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Mr. Latta follow:]

               Prepared Statement of Hon. Robert E. Latta

    Good morning and welcome to our panel of witnesses. While I 
am always happy to be here with my colleagues to learn more 
from the real experts on important issues in the telecom space, 
I have to admit I'm confused why we need to spend another 
entire hearing on net neutrality less than a month after 
talking about the same thing.
    In the meantime, the majority has introduced essentially 
the same bill that has already failed to garner the support of 
their entire caucus as a CRA in the last Congress. Make no 
mistake, there are a lot of different ways for Congress to go 
about protecting consumers with permanent net neutrality rules. 
For example, the bill I introduced last month is based on 
Chairman Waxman's approach in 2010 and my colleagues, 
Republican Leader Walden and Mrs. Rodgers, offered two more 
bills based on the rules from the FCC's 2015 order and 
Washington State's bipartisan legislation from 2018. These 
bills all originated from Democratic net neutrality proposals 
or laws. Anyone interested in a bipartisan legislative solution 
would consider each of them to be a reasonable starting point 
for a real discussion.
    In contrast, the majority came to that hearing with no new 
ideas. Since that time, we have not heard a word from them 
until they were ready to announce yet another net neutrality 
hearing. Worst of all, instead of engaging with us to try to 
solve the problem, my colleagues have retrenched back to the 
most extreme position in this debate.
    The idea that only Title II is ``real'' net neutrality is 
dangerous and wrong. Those who are newer to this subcommittee 
or to this debate should not be fooled. You have heard over and 
over again that we need to protect consumers from blocking, 
throttling, and internet ``fast lanes,'' which sounds 
reasonable enough. Well, we can easily do all of this without 
giving the Government free rein over the internet through the 
specter of Title II.
    Everyone who has followed this net neutrality debate on 
even the most superficial level is aware that Title II is a 
nonstarter with Republicans, and even with some Democrats. It 
has no chance of ever passing the Senate or being signed by the 
President. Yet here we are in a repetitive hearing followed by 
a string of partisan victories that will simply ensure that 
everyone digs in further and nothing meaningful ever gets done 
to protect consumers.
    Even if there were a chance that the majority's Title II 
bill could become law we now know unequivocally that it would 
be the wrong direction for rural America. As we heard from Mr. 
Franell at our last hearing, and from countless other rural 
carriers as well, Title II was a devastatingly effective 
investment killer for the small ISPs, who we need to be 
expanding to serve more of our constituents in rural America. 
At that hearing, so many Members on both sides of the aisle 
engaged Mr. Franell with questions and concerns about this 
impact. There seemed to be an overwhelming bipartisan interest 
in working to close that digital divide and get modern 
broadband service out to communities that are being left 
behind. So, why aren't we spending our time working together on 
that instead of putting the crushing regulatory regime of Title 
II back onto the folks we need to be out there investing and 
expanding? It makes no sense.
    I look forward to hearing from our witnesses, and with that 
I yield back.

    Mr. Doyle. The gentleman yields back.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    The Chair now recognizes Mr. Pallone, chairman of the full 
committee, for 5 minutes for his opening statement.
    Mr. Pallone. Thank you, Chairman Doyle.
    Words like net neutrality and open internet don't capture 
how central this issue is for our society. We are talking about 
what the country stands for.
    We are talking about saving economic opportunity and 
innovation, saving our kids' educational opportunities, and 
saving our democracy, and it is that important.
    Without net neutrality, a free and open internet simply 
does not exist. We have all heard the fears of our 
constituents. In my district, small businesses like Rock Star 
Bakery and Second Life Bikes in Asbury Park are concerned that 
without net neutrality their businesses could be blocked from 
reaching their customers.
     They worry large corporations could buy ``fast lanes,'' 
which would make their businesses less competitive. 
Conservatives and liberals alike worry about their voices being 
shut down by corporations that don't agree with their point of 
view, and without access to a free and open internet, my 
constituents are worried it would be harder to find a job, 
harder to get the training they need, and harder for their kids 
to keep up at school.
    After all, today, people need the internet to find good-
paying jobs and to prepare their children to succeed in life. A 
free and open internet isn't just about making sure that we can 
watch videos on our computers or on our phones.
    It is much more than that. It is about protecting free 
speech, commerce, creativity, and innovation, and that is why 
it is sad that we even have to hold this hearing on legislating 
to safeguard the internet.
    The FCC's order in 2015 established strong net neutrality 
rules and that was upheld twice in Federal court. The debate 
about net neutrality was over. Consumers and small businesses 
were protected.
    But the Trump FCC defied the American people and rolled 
back those common-sense protections. It didn't matter that 
polling showed that 86 percent of Americans supported these 
protections, nor did it matter that a historic 24 million 
people commented on their action, and the overwhelming majority 
in opposition.
    And that is why this committee must act. The Save the 
Internet Act will restore the meaningful net neutrality 
protections Americans want. It will stop this FCC or a future 
FCC from undermining free speech, small businesses, and 
consumers, and we must act swiftly.
    There is no time for delay. Without net neutrality, we are 
already seeing the slow march of anti-consumer behavior. ISPs 
are charging internet users more for using their smart phones' 
internet connection on another device. In other instances, they 
are charging consumers more for watching high-definition 
videos. And that is not what a free and open internet looks 
like.
    So that is why I am very happy that so many of my 
colleagues have joined with Chairman Doyle in signing on as 
original cosponsors of this legislation. After unveiling the 
Save the Internet Act last Wednesday, the bill was introduced 
with 132 original cosponsors.
    And the Save the Internet Act will bring back the FCC's 
commonplace bedrock principles. It will put a cop on the beat 
at the FCC and protect Americans and small businesses from 
abusive and discriminatory network practices.
    Mr. Pallone. And with that, I would like to yield one 
minute to the vice chair of our subcommittee, the gentlewoman 
from California, Ms. Matsui, whatever time she may consume.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Words like ``net neutrality'' and ``open internet'' don't 
capture how central this issue is for our society. We are 
talking about what the country stands for. We are talking about 
saving economic opportunity and innovation, saving our kid's 
educational opportunities, and saving our democracy. It is that 
important. Without net neutrality--a free and open internet 
simply does not exist.
    We've all heard the fears of our constituents. In my 
district, small businesses like Rockstar Bakery and Second Life 
Bikes in Asbury Park are concerned that without net neutrality 
their businesses could be blocked from reaching their 
customers. They worry large corporations could buy ``fast 
lanes,'' which would make their businesses less competitive.
    Conservatives and liberals alike worry about their voices 
being shut down by corporations that don't agree with their 
point of view.
    And without access to a free and open internet, my 
constituents are worried it would be harder to find a job, 
harder to get the training they need, and harder for their kids 
to keep up at school. After all, today, people need the 
internet to find good paying jobs and to prepare their children 
to succeed in life.
    A free and open internet isn't just about making sure that 
we can watch videos on our computers or our phones. It is much 
more than that. It is about protecting free speech, commerce, 
creativity, and innovation.
    That is why it's sad that we even have to hold this hearing 
on legislating to safeguard the internet. The FCC's order in 
2015 establishing strong net neutrality rules was upheld twice 
in Federal court. The debate about net neutrality was over. 
Consumers and small businesses were protected. But the Trump 
FCC defied the American people and rolled back those common-
sense protections.
    It didn't matter that polling showed 86 percent of 
Americans supported these protections. Nor did it matter that a 
historic 24 million people commented on their action, the 
overwhelming majority in opposition.
    And that is why this committee must act. The Save the 
Internet Act will restore the meaningful net neutrality 
protections Americans want. It will stop this FCC or a future 
FCC from undermining free speech, small businesses, and 
consumers.
    We must act swiftly. There is no time for delay. Without 
net neutrality, we're already seeing the slow march of anti-
consumer behavior. ISPs are charging internet users more for 
using their smart phone's internet connection on another 
device. In other instances, they are charging consumers more 
for watching high definition videos. This is not what a free 
and open internet looks like.
    That's why I am thrilled so many of my colleagues have 
joined with Chairman Doyle in signing on as original cosponsors 
of this legislation. After unveiling the Save the Internet Act 
last Wednesday, the bill was introduced with 132 original 
cosponsors.
    The Save the Internet Act will bring back the FCC's 
commonplace, bedrock principles. It will put a cop on the beat 
at the FCC and protect Americans and small businesses from 
abusive and discriminatory network practices.
    With that, I yield one minute to the vice chair of the 
subcommittee Ms. Matsui.

    Ms. Matsui. Thank you, Chairman Pallone.
    As you know, paid prioritization has been a priority of 
mine for several years and I think we all agree that calls 
terminating at public safety answering points shouldn't be 
dropped and various content delivery systems and network 
traffic operations have become important parts of the internet 
ecosystem that can improve the consumer experience.
    The core issue here is ensuring consumers don't have to pay 
more for the same products and services online and it doesn't 
take a technologist to know when you are getting a bad deal.
    I am mindful of the potential use cases that next-
generation networks can facilitate and I previously introduced 
legislation to ensure that allowing all consumers to access 
content equally remains at the center of the important debate 
on the service requirements and consumer benefits of our open 
internet policies.
    I am very pleased that we are having this hearing and I 
feel it is very, very necessary. We need a free and open 
internet and hearings like this are very necessary.
    Thank you, and I yield back.
    Mr. Doyle. The gentlelady yields back.
    Does the gentleman yield back his time?
    Mr. Pallone. Yes, I do. Thank you.
    Mr. Doyle. The gentleman yields back.
    The Chair now recognizes Mr. Walden, the ranking member of 
the full committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Mr. Chairman.
    Mr. Doyle. Good morning.
    Mr. Walden. Thank you for having this hearing.
    Before I start, I just have a question for the Chair. Does 
18 U.S.C. Section 1001 involving false statements to Congress 
apply to witnesses who testify here even if they don't stand up 
and swear in?
    Mr. Doyle. It does.
    Mr. Walden. OK. Thank you.
    I want to thank our witnesses, especially our sole 
Republican witness. Mr. McDowell, it is always good to have you 
before the committee.
    A permanent legislative solution produced in good faith 
with our Democratic colleagues is the only way to protect 
consumers, innovation, and an open internet.
    I have repeatedly called for an end to this ridiculous 
partisan back and forth. It is time for bipartisan legislation 
that could actually become law and I think we could find common 
ground as this committee has a history of doing.
    Yet, even after offering a menu of bipartisan legislative 
proposals at our hearing last month to preserve an open 
internet once and for all, unfortunately, my friends on the 
other side have not decided to work with us on a bipartisan 
solution and I am really disappointed.
    The partisan approach is not the answer. It will not become 
law. Title II is not necessary to preserve a free and open 
internet. We could permanently ban blocking, we could 
permanently ban throttling, and Ms. Matsui's concerns--we could 
permanently ban paid prioritization without the heavy-handed 
approach of Title II.
    We heard last month about the regulatory impact of Title II 
on rural broadband deployment from a small internet service 
provider, Mr. Joe Franell of Eastern Oregon Telecom. Indeed, he 
is from my district in eastern Oregon and across rural America 
it is where we rely on small ISPs like Eastern Oregon Telecom 
to help connect our communities with high-speed internet.
    In an opinion piece in the East Oregonian that is running 
this morning, Joe wrote that the heavy hand of Title II, 
``shifted Eastern Oregon Telecom's focus from our consumers to 
regulatory interference and the draining cost of reporting and 
compliance,'' closed quote.
    Joe went on to say that every dollar he spends on reporting 
to regulatory agencies is a dollar not spent on serving rural 
Oregon.
    Frankly, Title II could provide the Federal Government near 
unlimited and unchecked authority to regulate and tax--regulate 
and tax--the internet. It is not an internet that protects 
consumers nor is that an internet that would allow for American 
ingenuity to thrive. I think we could do better.
    I would also like to take note that the internet seems to 
be working today, despite all the hyperbolic rhetoric to the 
contrary last year. So what internet crisis brings us to the 
hearing room today?
    It is certainly not the abuses by the tech platforms that 
occupy the news every day, not the limiting of conservative 
voices on social media, shadow banning and throttling and 
things of that nature, not the seeming inability to curb 
harmful and illicit behavior online, not how tech companies 
make their deals to prioritize internet traffic on the off 
ramps, not their own agreements on sharing the people's 
personal information.
    No, that is not what brings us here today. What brings us 
here is that Speaker Pelosi still believes broadband providers 
are the real threat and so I assume, directed the majority 
would move this bill.
    The internet of today grew dramatically with little or no 
Government interference. Saddling it now with an archaic 
regulation from the 1930's monopoly-era copper land-line phone 
company seems like an odd way to spur investment and 
innovation.
    Meanwhile, big tech companies want complete freedom not 
just from regulation but also from liability for facilitating 
all sorts of harmful and illicit activity.
    Twenty years ago, Republican Congress and a Democratic 
president granted special liability limitations to help the 
tech sector to flourish.
    This is Section 230 of the Telecom Act of 1996 and, without 
objection, this bipartisan agreement accomplished its primary 
objective. Online platforms are now major venues for 
communication and commerce and not just in the United States 
but around the world.
    But Section 230 was also supposed to be about 
responsibility. With a liability limitation in their back 
pocket, we increasingly see the tech giants wield their power 
at the wrong targets.
    When will this subcommittee seriously consider the role of 
edge providers either as common carriers in the information 
age, or how they are the ones with business models that 
actually use our data for their profits?
    If you are going to protect consumers online, should those 
online protections apply to the whole internet ecosystem?
    Meanwhile, Mr. Chairman, we should hear directly from the 
Federal Communications Commission about how this legislation 
will impact the vitality of the internet.
    I was under the impression the majority planned to have the 
FCC up here to testify in the first quarter of this year. 
Unfortunately, that hasn't happened yet.
    From a process standpoint and considering the need for the 
full commission to weigh in on the impact of this proposal, Mr. 
Chairman, will you commit to letting us have a hearing with the 
Commissioners before this measure is ushered through in a 
markup?
    I know Ms. Eshoo was quite vocal last summer when 
Republicans wanted to match our bipartisan success of enacting 
the FCC reauthorization with completing an NTIA 
reauthorization.
    Despite having had numerous hearings that included NTIA's 
administrator as well as former administrators and interested 
parties, there was still a demand by the Democrats that Mr. 
Redl appear again following our legislative hearing.
    So what I would like to know is can we have the Commission 
here before we are asked to markup this legislation?
    Mr. Doyle. I will make sure to let you know when we invite 
them.
    Mr. Walden. That is a little different, but thank you, Mr. 
Chairman, for your response.
    [Laughter.]
    Mr. Walden. And I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you and welcome to our witnesses, especially our sole 
Republican witness Mr. McDowell, a former Commissioner of the 
FCC.
    A permanent, legislative solution produced in good faith 
with our Democratic colleagues is the only way to protect 
consumers, innovation, and an open internet. I have repeatedly 
called for an end to this ridiculous, partisan back-and-forth. 
It's time for bipartisan legislation that can actually become 
law. Yet, even after offering a menu of bipartisan legislative 
proposals at our hearing last month to preserve an open 
internet once and for all, unfortunately our Democratic 
colleagues have once again refused to work with us on a 
bipartisan solution.
    Their partisan approach is not the answer. Title II is not 
necessary to preserve a free and open internet. We can 
permanently address blocking, throttling, and paid 
prioritization without the harmful, heavy-handed approach of 
Title II.
    We heard last month about the regulatory impact of Title II 
on rural broadband deployment from a small Internet Service 
Provider, Joe Franell of Eastern Oregon Telecom. In my district 
in eastern Oregon and across rural America, we rely on small 
ISPs like Eastern Oregon Telecom to help connect our 
communities with high-speed internet. In an op-ed in the East 
Oregonian this morning, Joe wrote that the heavy hand of Title 
II ``shifted Eastern Oregon Telecom's focus from our consumers 
to regulatory interference and the draining cost of reporting 
and compliance'' Joe went on to say that every dollar he spends 
on reporting to regulatory agencies is a dollar not spend on 
serving rural Oregon.
    Frankly, Title II could provide the Federal Government near 
unlimited and unchecked authority to regulate and tax the 
internet. That is not an internet that protects consumers nor 
does it allow for American ingenuity to thrive. We can do 
better.
    I'd also like to note that the internet seems to be working 
today, despite all the hyperbolic rhetoric to the contrary last 
year. So what internet crisis brings us to the hearing room 
today? It's certainly not the abuses by the tech platforms that 
occupy the news everyday--not the limiting of conservative 
voices on social media, not the seeming inability to curb 
harmful and illicit behavior online, not how tech makes their 
deals to prioritize internet traffic, and not their own 
agreements on sharing of people's personal information. What 
brings us here is that Speaker Pelosi still believes broadband 
providers are the real threat, and so directed the majority to 
act on a bill that won't become law.
    The internet of today grew dramatically with little or no 
Government interference. Saddling it now with archaic 
regulation of the 1930s monopoly-era copper landline phone 
company seems like an odd way to spur investment and 
innovation. Meanwhile, Big Tech companies want complete freedom 
not just from regulation, but also from liability for 
facilitating all sorts of harmful and illicit activity.
    Twenty years ago, a Republican Congress and a Democrat 
President granted special liability limitations to help the 
tech sector to flourish. This is Section 230 of the Telecom Act 
of 1996, and without question this bipartisan agreement 
accomplished its primary objective. Online platforms are now 
major venues for communication and commerce, and not just in 
the United States but around the world. But, Section 230 was 
also supposed to be about responsibility. With a liability 
limitation in their backpocket, we increasingly see the tech 
giants wield their power at the wrong targets.
    When will this subcommittee seriously consider the role of 
the edge providers either as common carriers in the internet 
age, or how they are the ones with business models that use our 
data for their profits? If you're going to ``protect'' 
consumers online, should those online protections apply to the 
whole internet ecosystem?
    Meanwhile, we should hear directly from the Federal 
Communications Commissioners about how this legislation will 
impact the vitality of the internet. I was under the impression 
that the majority planned to have the FCC up to testify in the 
first quarter of this year. Unfortunately, that hasn't happened 
yet. From a process standpoint and considering the need for the 
full commission to weigh in on the impact of this proposal, Mr. 
Chairman will you commit to letting us have a hearing with the 
Commissioners before this measure is rushed to a markup?
    I know Ms. Eshoo was quite vocal last summer when 
Republicans wanted to match our bipartisan success of enacting 
the FCC reauthorization with completing an NTIA 
reauthorization. Despite having had numerous hearings that 
included NTIA's Administrator as well as former Administrators 
and interested parties, there was still a demand by the 
Democrats to have Mr. Redl appear again following our 
legislative hearing. Can you assure me that the majority will 
hold itself to the same standard in this case?
    With that, I yield back.

    Mr. Doyle. I would just say to my friend--and he is my 
friend--that I must have missed the phone call when you said, 
let us get together and sit down and see if we can work 
together on net neutrality.
    What we got instead was three bills being dropped without 
our knowledge, before any of us knew about it. I would just 
suggest to the gentleman that that's not the way to work 
together.
    Mr. Walden. Mr. Chairman, may I respond?
    Mr. Doyle. Yes, you may.
    Mr. Walden. Thank you.
    For 4 or 5 years I have had an open door. I have had draft 
legislation and I have publicly and privately offered up the 
opportunity to sit down and work through these things, and the 
idea of having three bills out there was simply to say here is 
menu of options. We didn't expect you to cosponsor those.
    But we remain willing to work with you to find a bipartisan 
solution.
    Mr. Doyle. Yes. I am glad your door is open. Mine is too 
and I just--if you had wandered into it, we might have had a 
conversation before you dropped the bills. OK.
     Let us move on. The gentleman yields back.
    The Chair wants to remind Members that pursuant to 
committee rules all Members' written opening statements will be 
made part of the record.
    Before I introduce our witnesses, I do want to recognize 
and introduce a former Member of Congress and a member of this 
Energy and Commerce Committee. Former Congressman Ron Klink is 
in the audience.
    Ron, nice to see you. Welcome. Yes, you could clap for Ron.
    [Applause.]
    Mr. Doyle. OK. I would now like to introduce our witnesses. 
Oh, and standing right in front of me. Chip Pickering, please--
Chip also a member of the committee.
    [Applause.]
    Mr. Doyle. Sorry, Chip.
    OK. Now, let us get to today's witnesses.
    Ms. Francella Ochillo, vice president of policy and general 
counsel for the National Hispanic Media. We also have Mr. 
Gregory Green, chief executive officer of Fatbeam; Mr. former 
Commissioner Robert McDowell, senior fellow at the Hudson 
Institute and partner at Cooley LLP; and last but not least, 
Mr. Matt Wood, vice president of policy and general counsel for 
Free Press Action.
    We want to thank all of our witnesses for joining us here 
today. We look forward to your testimony.
    You are each going to have 5 minutes to do your opening 
statements. We do not have the lighting system here in front of 
you, but we will be tracking this here, and once you get to 
your 5 minutes you will hear a little gentle tap of the gavel 
and know that it is time to wrap up your testimony if you 
haven't already done so.
    So, we will start with Ms. Ochillo. You are recognized for 
5 minutes.

 STATEMENTS OF FRANCELLA OCHILLO, VICE PRESIDENT OF POLICY AND 
  GENERAL COUNSEL, NATIONAL HISPANIC MEDIA COALITION; GREGORY 
 GREEN, COFOUNDER AND CHIEF EXECUTIVE OFFICER, FATBEAM; ROBERT 
 M. McDOWELL, SENIOR FELLOW, HUDSON INSTITUTE, PARTNER, COOLEY 
  LLP; MATTHEW F. WOOD, VICE PRESIDENT OF POLICY AND GENERAL 
                COUNSEL, FREE PRESS ACTION FUND

               STATEMENT OF MS. FRANCELLA OCHILLO

    Ms. Ochillo. Good morning, Chairman Doyle, Ranking Member 
Latta, and other members of the subcommittee.
    My name is Francella Ochillo. I am the vice president of 
policy and general counsel at the National Hispanic Media 
Coalition based in Pasadena, California.
    For years, NHMC has advocated for a free and open internet. 
We help policymakers and lawmakers like you understand the 
impact and what is at stake for Americans who do not have the 
resources or the capacity to engage in these types of debates 
in Washington, DC.
    Today, my comments are intended to reflect those voices 
including families, students, creators, and activists who 
support a free and open internet but do not have the good 
fortune of being able to join us in this room.
    The net neutrality consumer protections that we have fought 
so tirelessly to restore were always intended to safeguard an 
open and free internet, the one that we envision for tomorrow.
    Access to that open internet has revolutionized the way 
that we think, the way that we work, the way that we 
communicate, the way that we learn. It has challenged the way 
that we see each other and tested our willingness to grow.
    In all of its wonder, the internet has also been one of the 
most important tools in remedying a long history of 
discrimination that still plagues our country.
    Taking messages online was the only way that activists were 
able to get the nation to stop and listen to the cries of 
Native Americans protecting sacred lands in North Dakota and 
how disenfranchised voices were able to put a spotlight on 
unarmed African-American men being shot by police.
    Online social justice movements forced people to stop and 
ask hard questions about contaminated water in Flint and why 
families seeking asylum at the border were irreconcilably 
separated from their children.
    But when there is a premium for access, the dangerous 
underbelly of the internet exposes people to a risk whether or 
not you are online, creating a digital caste system of those 
who can afford to pay more. It feeds the dark chambers of the 
internet where division and hate speech and discrimination 
thrive.
    Sunlight and open access--that is the best remedy because 
this internet has connected us in a way that, historically, our 
nation has been unable to do so.
    It serves as the digital encyclopedia where students can go 
to find out why the Japanese should have never been in 
internment camps or the many reasons why Jim Crow was wrong.
    Being able to discover those unpleasant truths about who we 
are as a nation and how we grow together requires that all 
Americans have access to the same information.
    Under the current regulatory framework, ISPs have no 
obligation to transmit messages as is. There are no rules that 
prevent them from blocking content online, slowing down certain 
websites, or giving preferential treatment.
    In essence, they have the power to decide what we see 
online and whose voices are heard. Simply put, this is a 
dangerous experiment at the expense of the American people, 
which should give all of us pause.
    The United States regularly ranks as one of the most 
expensive places for internet among developed countries in the 
world and affordability remains the main barrier to adoption.
    In 2018, approximately 24 million people still did not have 
access to broadband of any kind. Forty percent of those 
people--40 percent of Americans living in rural communities had 
no access and 60 percent of people living on tribal lands face 
the same fate.
    These Americans, all on the wrong side of the digital 
divide, regularly find their opportunities for growth, their 
opportunity to participate in our democracy, as well as their 
upward mobility that is directly linked to their level of 
access.
    If we can find a way to provide wife for astronauts while 
they are outer space, I don't understand why we can't find a 
way to connect people in Peoria, Illinois, or Augusta, Georgia, 
or Granville, Texas, or Chi mayo, New Mexico, or even in my 
hometown of New Orleans, Louisiana.
    We have a choice. We can affirmatively protect the internet 
that was started with public funds and always intended for 
public good, or we can hope that this digital caste system of 
the haves and the have nots steers clear of the communities 
that we call home.
    We have a responsibility to ensure that every American has 
an opportunity to participate as well as a responsibility to 
understand the insurmountable costs and the consequences when 
they are disconnected, because while they may shoulder the 
individual burden, there is a collective cost.
    If this is, in fact, the digital revolution then that means 
that we are having one of the most important conversations of 
our time and we need to be vigilant about understanding the 
consequences of creating an internet where some have basic and 
limited access and others get a VIP pass.
    We have to decide what type of digital infrastructure that 
we plant to leave behind for generations to come and the only 
questions that remains is did we stand up for them when we had 
the chance.
    Thank you.
    [The prepared statement of Ms. Ochillo follows:]
    [GRAPHIC] [TIFF OMITTED] T7312.001
    
    [GRAPHIC] [TIFF OMITTED] T7312.002
    
    [GRAPHIC] [TIFF OMITTED] T7312.003
    
    [GRAPHIC] [TIFF OMITTED] T7312.004
    
    [GRAPHIC] [TIFF OMITTED] T7312.005
    
    [GRAPHIC] [TIFF OMITTED] T7312.006
    
    [GRAPHIC] [TIFF OMITTED] T7312.007
    
    Mr. Doyle. Thank you.
    We now recognize Mr. Green for 5 minutes.

                 STATEMENT OF MR. GREGORY GREEN

    Mr. Green. Chairman Doyle, Ranking Member Latta, thank you 
very much, and members of the subcommittee, thank you for 
having me.
    I am Gregory Green. I am the CEO and cofounder of Fatbeam. 
Fatbeam is a small ISP and fiber-based infrastructure provider 
in the West Coast.
    Today, Fatbeam operates in seven markets--Washington, 
Idaho, Montana, Wyoming, and Oregon. We also just opened a 
region in--Southwest region in Nevada, Arizona, and New Mexico.
    We build fiber optic networks in, typically, markets tier 2 
and tier 3, 150,000 in population and below, and in those 
markets we provide healthcare providers, Government agencies, 
schools, education, higher ed, and other businesses, and 
institutions open access to our network, which also means that 
we share our fiber network with other ISPs such that they can 
deliver residential and other services that maybe we don't 
initially provide in that market space.
    I have also been a proponent of net neutrality. Fatbeam 
supports net neutrality and we support very much the FCC order 
in 2015 for net neutrality.
    In fact, since net neutrality, we have invested in eight 
new markets from the order coming out in 2015. Overall, we have 
invested $30 million in fiber-based infrastructure--not 
wireless, but fiber-based infrastructure, and we are in 40 
markets, as I mentioned, that we operate today.
    The driver for that is, obviously--in other words, demand 
for our inventory and our product set is driven by our 
customers. When there is a need we will prevail, and we provide 
that solution and we very much enjoy coming into a marketplace 
that is requesting demand in services when in fact there is 
only maybe an incumbent of a cable company and a phone company 
in place.
    In 2017, I wrote a letter--an open letter--supporting the 
rules for net neutrality. I was concerned about the repeal and 
I remain so today.
    I have 20-plus years in the organization, and I am very 
confident that over those years we have had many successes 
including that in the cellular industry where we utilize Title 
II.
    There is a fallacy that seems to be out there that there's 
a history and the fallacy of investment where AT&T and Comcast 
and others would possibly invest less money if net neutrality 
were to continue and, having looked at those actual numbers, 
there may have been a smaller investment but was very, very 
minuscule.
    We continue to invest today, and we continue to grow our 
business, and net neutrality is a very large component of that 
because we believe in the foundation that net neutrality 
provides for equal access for everyone.
    We know that in a lot of marketplaces that 70 percent of 
the consumers only have one choice for their ISP and we do not 
feel that is a competitive--it may be a competitive advantage 
but it is not an open access advantage so that the consumer 
ends up with what they need at the end of the day. They need 
competition, they need a landscape which they can count on, and 
investment in the community.
    I am not a lawyer. I am a businessman. But I was very much 
part of the bipartisan Telecommunications Act of 1996 when 
Craig McCaw and myself and a lot of other gentlemen began the 
path down a company called Nextlink.
     You remember the name Nextlink and Craig McCaw. We built a 
company called Nextlink. It later became XO Communications, one 
of the first CLECs in the United States. We raised $400 million 
during that time, and the Telecommunications Act of '96 gave us 
that very opportunity to do so.
    So, I appreciate the opportunity to speak today. I 
appreciate the opportunity that you provided us to be a part of 
this. I would like to say that we very much support net 
neutrality and we will answer any questions that you may have 
today.
    Thank you.
    [The prepared statement of Mr. Green follows:]
    [GRAPHIC] [TIFF OMITTED] T7312.008
    
    [GRAPHIC] [TIFF OMITTED] T7312.009
    
    [GRAPHIC] [TIFF OMITTED] T7312.010
    
    [GRAPHIC] [TIFF OMITTED] T7312.011
    
    [GRAPHIC] [TIFF OMITTED] T7312.012
    
    Mr. Doyle. Thank you, Mr. Green.
    The Chair now recognizes Commission McDowell for 5 minutes.

              STATEMENT OF MR. ROBERT M. McDOWELL

    Mr. McDowell. Thank you, Chairman Doyle. It is great to be 
here. Ranking Member Latta, Chairman Pallone, and Ranking 
Member Walden, it is an honor always to be back before your 
committee. So thank you.
    I did serve at the FCC from 2006 to 2013. I am a partner at 
Cooley LLP. I am also a senior fellow at the Hudson Institute, 
but I testify today only in my personal capacity and the views 
today that I express are purely my own.
    The debate over the best way to keep the internet open and 
freedom enhancing has raged for about 15 years. While the 
national political pendulum has swung back and forth during 
that time, the American internet ecosphere has blossomed as the 
most powerful explosion of entrepreneurial brilliance in human 
history.
    And let us make no mistake. The American internet market is 
the envy of the world. The legal and regulatory framework that 
provided the necessary certainty and protections for the 
phenomenon that became the internet was rooted in consumer 
protection, pro-competition, and antitrust statutes such as the 
Federal Trade Commission Act, the Clayton Act, the Sherman Act, 
as well as tort and contract common law, among others.
    Furthermore, a fundamental agreement in the successful 
public policy recipe was Title I of the Communications Act of 
1934. A quarter century ago at the time of the internet's 
privatization, the Clinton-Gore administration made a wise 
choice to insulate the internet ecosphere from the heavy-handed 
regulation of Title II of the 1934 Act.
    This monumental decision made it a crucial tipping point in 
historical arc of the net, enjoyed not only bipartisan and 
nearly unanimous support here in the U.S. but internationally 
as well.
    In short, reliance on this time-tested legal construct 
created an environment where ideas hatched in dorm rooms or 
garages could become some of the most successful companies in 
the world in just a handful of years.
    Light touch regulation not only allowed the internet's edge 
to flourish, but it also provided the certainty and stability 
needed for the capital markets to take the leap to invest more 
than $1.6 trillion in private risk capital in broadband 
infrastructure since the mid-1990s.
    Furthermore, it was not that long ago that the FCC itself 
issued unanimous and bipartisan orders classifying broadband 
internet access service across all platforms as an information 
service. I supported such efforts in concert with my Democratic 
colleagues as recently as 2007.
    Needless to say, the political and public policy atmosphere 
has changed a few times since then. The FCC has attempted to 
regulate broadband services in various ways over the past 11 
years including by classifying broadband as a Title II 
telecommunications service for the first time in early 2015. 
And most recently, it acted in December 2017 to restore the 
pre-2015 legal framework that was proven to work so well.
    To be clear, I do not think that additional legislation is 
needed to protect consumers, startups, or broadband 
investments. The proof is in the pudding of the internet's 
brief but brilliant history.
    Nonetheless, the public policy pendulum has been swinging 
back and forth above the heads of internet entrepreneurs like 
the sword of Damocles and has created uncertainty and it is 
counterproductive.
    For instance, anticipating uncertainty in 2015 surrounding 
the Title II classification, there is evidence that capital 
markets slowed their investment in broadband infrastructure.
    After the Restoring Internet Freedom order of 2018, 
investment in broadband rebounded. The time has come, however, 
for Congress to provide clarity and certainty by enacting new 
legislation.
    Such an effort could end this era of bitter and vitriolic 
zero-sum advocacy where, in order for one faction to win others 
must lose.
    The 116th Congress serves during a unique period in the 
internet's history and it has the power to forge a reasonable 
majority to craft new bipartisan legislation that could last 
for decades and serve as a beacon for an open and freedom-
enhancing internet across the globe.
    Any bill passed by this House must have a reasonable chance 
to garnish 60 votes in the Senate if there is to be any hope of 
it becoming law.
    The only path to that goal of meaningful, positive, and 
constructive public policy for the internet, a law that will 
last beyond election cycles of two to four to eight years, is 
through finding that majority that offers a win-win-win 
scenario for all who build and are affected by the internet.
    Without a large bipartisan majority, any legislative effort 
is, largely, symbolic. A hopeful starting point, however, could 
begin with the principles laid out by FCC Chairman Michael 
Powell in 2005, some of which were echoed by Chairman Julius 
Genachowski in 2010, such as no anti-competitive throttling, 
blocking, or prioritization.
    This Congress has a rare opportunity to create a lasting 
legacy for the internet ecosphere and I look forward to helping 
you achieve it.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McDowell follows:]
    [GRAPHIC] [TIFF OMITTED] T7312.013
    
    [GRAPHIC] [TIFF OMITTED] T7312.014
    
    [GRAPHIC] [TIFF OMITTED] T7312.015
    
    [GRAPHIC] [TIFF OMITTED] T7312.016
    
    [GRAPHIC] [TIFF OMITTED] T7312.017
    
    [GRAPHIC] [TIFF OMITTED] T7312.018
    
    [GRAPHIC] [TIFF OMITTED] T7312.019
    
    [GRAPHIC] [TIFF OMITTED] T7312.020
    
    [GRAPHIC] [TIFF OMITTED] T7312.021
    
    [GRAPHIC] [TIFF OMITTED] T7312.022
    
    [GRAPHIC] [TIFF OMITTED] T7312.023
    
    Mr. Doyle. Thank you, Commissioner.
    We now recognize Mr. Wood for 5 minutes.

                STATEMENT OF MR. MATTHEW F. WOOD

    Mr. Wood. Chairmen Doyle and Pallone, Ranking Member Latta, 
Walden, and subcommittee members, thank you for inviting me 
back.
    Free Press Action is a nonpartisan nonprofit with 1.4 
million members around the country and we support H.R. 1644, 
the Save the Internet Act.
    Our members know that having equitable access to technology 
and information is the key to making change and making a 
living. Net neutrality is an issue of economic and racial 
justice. It is a timeless nondiscrimination law safeguarding 
people's rights to say and see what they want online, free from 
unjust interference by ISPs.
    This bill restores the FCC's 2015 Open Internet Order 
released four years ago today, as luck would have it, and it 
brings back the three bright line bans on blocking, throttling, 
and paid prioritization.
    But it does more than that and that's a good thing. It 
restores the FCC's whole decision that adopted those rules, put 
them on the bedrock of Title II, and forbore from the parts of 
that law that we don't need.
    Restoring the 2015 framework is precisely the right 
approach on the law and the facts and is tremendously popular, 
too. Huge majorities oppose this repeal. Eighty-six percent, 
including 82 percent of Republicans, supported keeping the 2015 
rules.
    So when I hear we can't have the 2015 rules back because we 
need a bipartisan solution, it reminds me of the ``Princess 
Bride'' line, ``You keep using that word. I do not think it 
means what you think it means.''
    This bill restores the FCC's power to make new rules, 
preventing new forms of ISP discrimination. That is why Section 
202 of the Communications Act is crucial.
    The FCC needs that authority to address any unreasonable 
discrimination like AT&T's schemes to favor its own video 
content and voice services or Comcast's abuse of 
interconnection points to slow traffic to a crawl.
    Provisions like Section 201 are crucial, too. It allows the 
FCC to address unjust and reasonable behavior like Verizon 
slowing down firefighters' data.
    Those who cynically say that wasn't a real net neutrality 
violation suggest that the FCC fiddled while forests and homes 
burned rather than have the power to protect people's lives and 
public safety.
     They also say that Title II is somehow too new and 
untested and yet also too old while claiming, funnily enough, 
even older antitrust and FTC laws can protect the open 
internet. Their claims don't add up.
    The FCC has used the 2015 framework with great success for 
decades for internet access, wireless voice, and business grade 
broadband, too. When it returned to the right law for net 
neutrality in 2015, that decision was upheld in the courts 
twice.
    Some still say we have no business applying laws written 
for 1930s monopolies. But what about present day ones? By 2017, 
39 percent of people in the U.S. still had, at most, one choice 
for wireless broadband offering downstream speeds of 25 
megabits per second.
    At 300 megabits per second, that figure is 77 percent. But 
even if they have a couple of choices, I doubt many 
constituents back home complained to you that broadband is just 
so darn affordable and reasonable they would be glad for no 
oversight at all.
    Yet, while the Save the Net bill restores the FCC's ability 
and mandate to watch out for abuses and fraudulent billing, it 
also locks in the FCC's 2015 decision to forebear from rate 
setting under Section 205.
    It also puts the FCC back on solid ground to protect a 
whole host of broadband rights outside of net neutrality with 
provisions like Section 254, offering a solid base for 
broadband universal service, and Section 224, granting 
competitive providers access to rights of way.
    And it fixes in place the 2015 order's decision not to 
apply resale or unbundling obligations in Section 251 but, by 
their own terms, do apply to telephone services alone.
    In sum, the bill restores not just the fundamental 
communications rights internet users need but the certainty 
that broadband providers have. That is why they continue to 
invest and deploy at, largely, the same pace and on the same 
trajectory as they did before the 2015 vote.
    New numbers for 2018 show that Chairman Pai's simplistic 
and silly promises on booming investment after repeal have not 
panned out. Broadband investments and speeds trend up over time 
though spending does come in cycles, and it trends that way for 
rural carriers, too.
    As my written testimony explains, one witness here last 
month claimed that he couldn't get a loan or expand his 
coverage for two years all because of Title II's supposed 
shadow.
    Yet, during the first two years of Title II's return he 
invested $2 million in fiber and tripled the speeds offered to 
all of his cable broadband customers in rural parts of Oregon.
    Thankfully, the Save the Net Act cuts through the clutter 
of false claims about supposed investment impacts and it 
restores all of the rights that internet users need.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Wood follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Doyle. Thank you, Mr. Wood.
    So, we have now concluded opening remarks and we are going 
to move to Member questions. Each Member will have 5 minutes to 
ask questions of our witnesses.
    Let me say to my colleagues that I am very interested in 
your questions but not after they go over 5 minutes. So, I 
would ask all of our colleagues to get their final ask in 
before their 5 minutes. We will allow the witnesses to answer a 
question if it goes past there. But let us all respect one 
another's time as we move forward.
    And I will start and try to set a good example by 
recognizing myself for 5 minutes.
    Mr. Wood, this bill would permanently prevent the FCC from 
enforcing the majority of Title II. Let me say that again for 
all my colleagues.
    This bill would permanently prevent the FCC from enforcing 
the majority of Title II. However, it would keep the 
prohibition on unjust and unreasonable practices.
    I want to know why you think this provision is necessary 
and what are some examples of practices that were not 
violations of the three bright lines that we all seem to agree 
on that limits blocking, throttling, and paid prioritization?
    What are something outside the three bright lines that 
would be a violation of unjust and unreasonable standards and 
why we need that section in the bill?
    Mr. Wood. Thank you, Chairman Doyle. I mentioned the 
firefighter example. I think that one cries out for attention. 
It was not necessarily a throttling violation under one of the 
bright line rules because Verizon was not throttling content 
coming into the firefighters. It was, basically, slowing them 
down no matter what they were doing with their service.
    So the unjust and unreasonable standard in Section 201 
actually couples with the nondiscrimination standard in 202 and 
would apply in situations like that.
    It would apply to fraudulent billing practices or other 
sort of price gauging that ISPs might engage in, not with the 
FCC deciding what rates providers could charge but having at 
least some oversight of that rate making that the providers do 
for themselves.
    Mr. Doyle. Mr. Green, at our last hearing we heard from 
another small ISP about how open internet rules hurt investment 
in his network.
    I am curious, did the 2015 rules or FCC oversight hurt your 
ability to get financing or impact your investment in any way, 
and has a potential investor ever declined to invest because of 
net neutrality rules?
    Mr. Green. No. We have, in fact, had great success with net 
neutrality rules. The discussion maybe comes up once in a while 
because it is so public. But I actually sit on the board of an 
organization, Northwest Washington--excuse me, Northwest 
Telecommunications Association.
    I am very familiar with the member that you are referring 
to--the ISP. We certainly--I certainly have a position to 
disagree with the opinion that it has any way deterred any 
investment into our sector by any such imagination.
    So, we have had great success since the Act in 2015.
    Mr. Doyle. Thank you.
    Ms. Ochillo, are you concerned that, based on Chairman 
Pai's restoring Internet Freedom Order that millions of 
Lifeline subscribers could be at risk of losing access and does 
Safe the Net bill put Lifeline program on a firmer legal 
footing?
    Ms. Ochillo. Thank you for that question, because I didn't 
have time to focus on Lifeline in my opening statement and it 
is one of the programs that my organization is most passionate 
about.
    Lifeline is the only Federal telecom subsidy for people who 
are in need to actually get connections to both broadband 
internet via phone or wireline phones at home and I think that 
it is important for us to recognize that Title II is where the 
actual authority for FCC to have those types of universal 
service plans comes from.
    I think that this bill is something that we need. I think 
that it is important for the FCC to have express authority to 
do universal service programs like Lifeline and the others that 
are funded through the USF program.
    Mr. Doyle. Thank you.
    Mr. Green, tell me, how does Save the Net bill help your 
business, and do you feel that it balances appropriate net 
neutrality rules with regulatory certainty that you need to 
conduct your business?
    And I am just curious, are you comfortable with the 
obligations that the Save the Net bill would put on you as well 
as the way that it preserves the integrity of the product you 
sell access to--an open internet?
    Mr. Green. Thank you for the question, Mr. Doyle.
    I am very much a proponent of Save the Internet. I think 
that it gives us all the protections, and I don't just mean a 
few. I mean all of the protections that are necessary such as 
interconnection, enforcement, and conduct. So, I very much 
support Save the Internet.
    Thank you.
    Mr. Doyle. Thank you very much.
    And with 45 seconds left on my time, I am going to yield 
back to set a good example for the rest of our colleagues and I 
am now going to ask my friend and ranking member, Mr. Latta, 
you have 5 minutes to ask questions.
    Mr. Latta. Thanks, Mr. Chairman, and again, thanks to our 
panel of witnesses for being with us today.
    Mr. McDowell, if I could start my questioning with you. My 
concern with reinstating Title II is that the broad authority 
it provides would open the door to intrusive Government 
regulation that has nothing to do with net neutrality.
    Will you answer yes or no to whether Title II could lead to 
the following scenarios?
    The Government setting prices.
    Mr. McDowell. Yes, Title II could.
    Mr. Latta. The Government determining what services ISPs 
could offer consumers and whether and how they could be 
bundled?
    Mr. McDowell. Yes, Title II does that as well.
    Mr. Latta. The Government directing where ISPs put their 
investments and how much they should earn.
    Mr. McDowell. Title II has that authority--that power, yes.
    Mr. Latta. The Government dictating how parts of the 
internet should be interconnected and on what terms.
    Mr. McDowell. Yes.
    Mr. Latta. The Government requiring ISPs to share networks 
they have built with private capital.
    Mr. McDowell. Yes, same answer.
    Mr. Latta. OK. Let me move on.
    I want to clarify something from Mr. Wood's testimony, 
contrary to his argument. Before 2015 the FCC had never 
classified broadband internet access under Title II.
    I would like to introduce for the record a letter you wrote 
back in May of 2010 to then Chairman Henry Waxman, which 
explains how the FCC issued a series of orders all without 
dissent that classified all broadband services as information 
services.
    Mr. Chairman, I would like to offer that for the record.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. Thank you very much.
    Mr. McDowell, will you explain to us why it is a myth that 
broadband was regulated under Title II?
    Mr. McDowell. So as I outlined in that letter, which is 
almost nine years old but the history remains the same, so you 
can go back to the 1996 Act when Congress had a chance to make 
a distinction between enhanced and basic services, which it 
did.
    So think of enhanced services as advanced services or 
computer-to-computer communications, going back to the computer 
inquiries at the FCC. So it is their storage forwarding 
processing of data is there something--some other service other 
than a pure transmission service.
    So, Congress looked at that in 1996 and then the FCC in 
1998, pursuant to the prompting of Senator Ted Stevens, issued 
what would be called in the vernacular the Stevens report.
    So this was the Clinton--second Clinton term and this was 
Chairman Bill Canard of the FCC--which looked at the emerging 
broadband or internet access space, which became broadband--and 
concluded that those services--internet access services--were 
rightly in Title I.
    Where this gets confusing or sometimes gets deliberately 
conflated is what do you do about the underlying transmission 
facilities if they are owned or operated by a carrier that is 
otherwise providing Title II services.
    So the transmission facilities, especially during the 
implementation of the 1996 Act--Section 251 and other 
sections--were under Title II.
    Folks often point to a GTE--the GTE ADSL order of 1998 as 
well, saying, aha, that was the FCC classifying internet access 
as a telecommunications or Title II service.
    That's not the case. The FCC did not reach that conclusion. 
That was about a tariff, again, of the underlying transmission 
component of DSL or ADSL services by GTE at the time.
    So there is a lot of confusion. It gets very technical very 
fast. Both legalese and engineering involved. But suffice it to 
say that internet access services have never been classified as 
common carriage. They have always been classified as an 
information service, or in the old days we called those 
enhanced services.
    Mr. Latta. OK. In my last minute, what concerns did you 
have about the 2015 rule's so-called general conduct standard 
and are there consumer-friendly services that could be 
prohibited under that standard?
    Mr. McDowell. So the general conduct standard in the 2015 
Title II order allowed the FCC to basically roam around the 
internet ecosphere so long as it could tether its decision to 
broadband.
    It was certainly untested in the appellate courts, but it 
was very open ended. I think it would have led to a lot of 
appeals, and keep in mind that, you know, Title II--just 
Sections 201 and 202--have been appealed in the courts hundreds 
of times and within the FCC thousands of times.
    And so that general conduct standard actually took the 
leash--Congress's leash off of the FCC's jurisdiction and would 
let it regulate as it saw fit until an appellate court put it 
back inside some boundary.
    Mr. Latta. Thank you very much.
    And, Mr. Chairman, I have 10 seconds left. I will yield 
back my time.
    Mr. Doyle. Thank you very much.
    I would just note, for the record, that all of the 
questions that the ranking member asked of Title II with the 
exception of the interconnection question was accurately 
answered by Commissioner McDowell except that those are all the 
sections of Title II that are not part of this bill. So, I 
would note that for the record.
    The Chair now recognizes Mr. McNerney for 5 minutes.
    Mr. McNerney. Well, I thank the Chair. I thank the 
witnesses. It is a good hearing. It is a good subject.
    My district does care strongly about net neutrality 
protections. When the FCC moved to repeal net neutrality, more 
than 8,000 of my constituents reached out to me to express 
their concerns.
    So, I held a town hall meeting on net neutrality. I heard 
from a veteran. I heard from a librarian. I heard from students 
and I heard from a small business owner about their concerns 
what this would do to their--to their interests.
    Mr. McDowell, thank you for your service as a Commissioner, 
as a chairman. You were an FCC Commissioner when the agency 
issued its first net neutrality enforcement action in 2008.
    Is that right?
    Mr. McDowell. That is correct.
    Mr. McNerney. Thank you. And you dissented from that action 
and issued a statement. Is that right?
    Mr. McDowell. Correct.
    Mr. McNerney. I would like to--I have a copy of your 
statement. I would like to submit that for the record.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. McNerney. Mr. McDowell, I also have a copy of the 
dissent you filed when the FCC adopted the 2010 Open Internet 
Order. Can you confirm that you dissented?
    Mr. McDowell. Yes.
    Mr. McNerney. All right. I would like to submit a copy of 
that for the record as well.
    Mr. Doyle. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. McNerney. And you sat down for an interview with the 
Wall Street Journal in 2017. Can you confirm that you sat for 
an interview on this subject in 2017?
    Mr. McDowell. I may have. I don't--I had many interviews. I 
am sorry to say I don't remember the specific one you are 
talking about.
    Mr. McNerney. I understand.
    Mr. McDowell. But for the--for the sport of it, yes. Let us 
say that.
    Mr. McNerney. But I have a copy of that and I would like to 
submit that for the record, without objection.
    Mr. Doyle. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. McNerney. So while I appreciate your willingness to 
engage on the issue and your suggestion that perhaps some rules 
are appropriate, I have to wonder whether you are truly 
interested in any safeguards to protect the free and open 
internet.
    In 2008, you claimed that net neutrality issues may be 
better left to nongovernmental internet governance groups. In 
2010, you said that net neutrality would cause irreparable harm 
to broadband investors and consumers.
    In 2017, when talking about net neutrality you said it is 
hype. My constituents don't think it is hype. And the broadband 
market is competitive as is. It seems like the only time you 
have agreed with the Government actions on net neutrality was 
the FCC's 2007 order repealing protections.
    Given you repeated opposition to net neutrality, it is hard 
for me to see that your critiques of our bill are anything more 
than a tactic meant to delay or halt efforts at giving 
Americans and my constituents critical online protections.
    Mr. McDowell. Am I--can I address these other questions?
    Mr. McNerney. Sure. No, it's not a question but----
    Mr. McDowell. OK. So----
    Mr. McNerney. If you can respond in 30 seconds.
    Mr. McDowell. Real quick, in observance of your time.
    So in 2008 that was an attempt to enforce the principles as 
rules and I objected on that basis--that they were not rules. 
The appellate court agreed with me and struck it back and 
turned it back to the FCC.
    In 2010, I thought the FCC had overreached. You are right. 
I didn't think that rules were necessary because there were 
other laws already on the books that I talk about in my opening 
statement that gave us this wonderful internet ecosphere that 
we enjoy today.
    But I also thought the FCC overstepped its bounds and 
didn't explain itself well and the appellate court, largely, 
agreed with me regarding the 2010 order.
    So in both of those cases, that is true. When it comes to 
today and having this sort of Damocles swing back and forth 
every two to four to eight years--and we have learned that 
surprise elections do happen so we don't know what is next--can 
we get a bill through the House that would get 60 votes in the 
Senate? I think that is a big question for this committee 
today.
    Mr. McNerney. All right.
    Thank you for your response to that.
    Mr. Wood, what do you think about Mr. McDowell's critiques 
of past FCC efforts to give consumers' open internet 
protections?
    Mr. Wood. Well, he is, obviously, right that those attempts 
failed in court in 2010 and in 2014 but that was because those 
rules weren't grounded in Title II.
    So, I think the Save the Net Act neatly solves that problem 
by permanently grounding the rules in the right part of the law 
and doesn't leave it prone to challenges from ISPs like Comcast 
and Verizon who went in and sued and had those rules knocked 
down.
    I also don't see the Sword of Damocles that he is talking 
about because, as Mr. Green testified and his research shows, 
investment has trended along just fine.
    Mr. McNerney. Well, I am going to follow up on that a 
little bit. Would you--would the proposed legislation give ISPs 
both large and small certainty in opening up investment?
    Mr. Wood. I believe so yes. I think that is what the record 
shows. They have continued to invest on the same path and 
trajectory that they did before 2015 during the Title II period 
and then since it has been repealed.
    Mr. McNerney. Do you have any estimates for how much 
investment might be--have been made?
    Mr. Wood. Well, I mean, the last page of our written 
testimony has some current aggregate figures. It tends to be, 
on the aggregate, about $70 or $80 billion a year. But we think 
those figures are actually somewhat uninformative because we 
look at individual companies and we see that they are investing 
at about the same percentages they have been for the past 
decade or more.
    Mr. McNerney. Thank you.
    All right, Mr. Chairman. I give you four seconds.
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes the full committee ranking member, 
Mr. Walden, for 5 minutes.
    Mr. Walden. Thank you very much, Mr. Chairman. Again, 
thanks for this hearing.
    Mr. McDowell, a quick question for you. Would Section 201 
allow the FCC to do basically everything Mr. Latta asked you 
that could be done?
    Mr. McDowell. Section 201 is a very powerful statute that 
has been litigated both administratively and in the appellate 
courts many times and the power of 201 is very broad and 
powerful.
    Mr. Walden. So the FCC could, basically--the questions Mr. 
Latta asked?
    Mr. McDowell. Yes 201 and 202, by the way. It's a necessary 
cousin as well. Yes.
    Mr. Walden. Necessary cousin. That is an interesting 
phrase.
    And so this legislation would not preclude the FCC from 
using its Section 201 and necessary cousin 202 to engage in all 
the things Mr. Latta expressed?
    Mr. McDowell. Not in my opinion.
    Mr. Walden. They could do a rulemaking and do that?
    Mr. McDowell. That is what it appears.
    Mr. Walden. OK.
     Mr. Green, I am curious about Fatbeam. Are you principally 
a business-to-business internet service provider?
    Mr. Green. Thank you for asking--thank you for asking the 
question.
    We do deliver indirectly--directly and indirectly 
residential services as----
    Mr. Walden. So what percent of your business is residential 
versus business to business? Because I was looking at the 
website and it really seems to be marketing more to business-
to-business, schools, hospitals.
    Mr. Green. Yes. I would say that probably less than 12 
percent of our----
    Mr. Walden. Less than 12 percent is residential. So very 
little of your business would actually fall under the Title II 
regime then, right?
    Mr. Green. Not necessarily. We have edge providers and 
other providers that would lease facilities from us.
    Mr. Walden. So but the edge providers aren't covered under 
Title II?
    Mr. Green. They are not.
    Mr. Walden. Do you think they should be?
    Mr. Green. I am sorry?
    Mr. Walden. Do you think they should be?
    Mr. Green. They should not be.
    Mr. Walden. OK. So it is okay for them to throttle and 
block and do that sort of activity that they do as part of 
their business plan?
    Mr. Green. They have a different set of rules that they 
operate under.
    Mr. Walden. Yes, they do, don't they?
    Mr. Green. Yes.
    Mr. Walden. Yes. And so then I want to go to Mr. Wood's 
testimony, which I have been through, and I see you spent a 
very--incredible amount of time trying to rebut the witness we 
had from my district the other hearing, Mr. Franell, on Page 25 
and all.
    And so we had the opportunity last night to share your 
testimony with Mr. Franell. When did you--did you reach out to 
Eastern Oregon Telecom?
    Mr. Wood. No. After the hearing, we published a piece about 
that, and I understand----
    Mr. Walden. Right, but my question--it is a simple 
question. Did you email them? Did you talk to them?
    Mr. Wood. No. We relied on public and news reports about 
investment at the time----
    Mr. Walden. Right.
    Mr. Wood [continuing]. And FCC data as well.
    Mr. Walden. Yes. That's why I was concerned about your 
testimony and why I raised the issue about, you know, how 
witnesses should behave here because Mr. Franell's testimony--
he sends the letter and I want to read from it, just part, and 
I will submit it for the record without objection, Mr. 
Chairman.
    Mr. Doyle. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. He says, in part, he goes through what really 
happened here in detail and I will make sure you see it, 
because he basically rebuts what you are saying and says, ``Mr. 
Wood's assertions are, simply put, ill-informed and, 
unfortunately, tell a story far different,'' and then in 
parentheses ``and not accurately from the one that actually 
occurred here in eastern Oregon. Had Mr. Wood simply picked up 
the phone or emailed I would have helped him so that his 
testimony could be a complete representation of the facts.''
    And he points out that his deployment was limited in scope 
to a lack of available cash, ``ultimately only resulting in us 
building out to about 700 homes in Hermiston. The loan we 
secured to do the build was obtained prior to the Open Internet 
Order and had to be guaranteed by Umatilla Electric Co-op. 
Sadly, the project scope that we had hoped for was 
significantly limited due to a lack of capital.''
    And then he said in response to Mr. Wood's second bullet on 
Page 25 of his written testimony, ``We obtained a cable system 
at zero dollars through RFPs from Boardman, Hermiston, Umatilla 
in unincorporated areas in northwest Umatilla County as they 
had been abandoned by their previous owner. We originally 
activated them with DOCSIS 2.0 cable modem termination system--
CMTS--bought on eBay. They allowed us to provide download speed 
up 30 megs. We upgraded the system to 3.0 systems in 2016 using 
Huawei-distributed CMTSs using cash organically generated. This 
new and extraordinarily cost-effective upgrade now allows us to 
offer speeds up to 100 megs to home.''
    And so there is more to this story than what your testimony 
gives this committee and it is, I think, unfortunate that you 
didn't actually reach out and do the rest of that--of that 
look.
    Mr. McDowell, so for what part of the internet's life and 
flourishing occurred under the Wheeler order of net neutrality?
    Mr. McDowell. Well, most everything up until February of 
2015. So pretty much everything we know today.
    Mr. Walden. And then that order was repealed when?
    Mr. McDowell. That order was voted on December 14th of 
2017. I think it became effective last summer.
    Mr. Walden. So,--and I know I am out of time, Mr. 
Chairman--but, basically, two years of the internet's lifespan 
was under the Wheeler order?
    Mr. McDowell. Yes. The internet was not born in February of 
2015.
    Mr. Walden. I yield back.
    Thank you.
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes Mr. Loebsack for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. I do want to thank 
Chairmen Doyle and Pallone, Ranking Members Latta and Walden, 
for having this hearing today and I thank the witnesses for 
their participation as well.
    Net neutrality, obviously, is a very important issue with 
this committee--I think for the country, and I am really glad 
that we are taking action today or at least beginning that 
process.
    As a representative of a rural district, I think net 
neutrality comes down to being pretty similar to many of the 
challenges that face rural Americans. That the challenge of 
access as much as anything.
    Rural Americans, I think, are often left behind when it 
comes to access to infrastructure and having many of the same 
opportunities as those living in the coasts--on the coasts or 
in urban areas. I know that is a constant refrain from me here 
on this committee and others on this committee as well.
    I have been a constant advocate before this committee for 
rural communities--in my southeast Iowa district, about 12,000 
or so square miles--it is very rural--and broadband in 
particular, because expanding access for all Iowans is one of 
the biggest challenges for my district as it is for many of the 
folks--districts of the folks on this committee.
    And the hard truth is that for many of my constituents it 
is not a question of where is service is being throttled or 
blocked but whether there is reliable service, if any, at all.
    And so that is a really important aspect of what I am 
interested in is just making sure that we have the services and 
access to good quality service across my district and open 
internet principles I think are an important part of that 
conversation as we consider the larger tech and internet 
environment facing us out there.
    Our responsibility is to make sure that Americans have 
reliable service everywhere and we do need to make sure that 
that access isn't being unfairly blocked or slowed down or 
degraded.
    So, I do want to turn to some questions and I apologize. I 
had to step out briefly. So, I thank my friend. Mr. McNerney 
may have addressed the issue of investment and I apologize for 
not being here to hear your answers.
    But I do want to talk about that because, you know, we have 
talked about the time frame here when we had the Open Internet 
Order, when it was repealed, when it--when the repeal went into 
effect and then where we are now.
    When it comes to investment, Mr. McDowell, how did the Open 
Internet Order affect investment? And I really would like you 
to be specific about that as well.
    Mr. McDowell. Absolutely. So if you look in the record of 
the FCC, filings made by the Wireless Internet Service 
Providers Association--we call them WISPs--and these are often 
mom and pop operations in rural areas including in Iowa, about 
80 percent of their members, they said in comments to the FCC, 
had trouble getting financing or loans.
    I am delighted Mr. Green's company hasn't had that problem, 
and so there may be better cases than others. But for these, 
these are the smallest of the small ISPs and----
    Mr. Loebsack. And when specifically did this happen and for 
what length of time?
    Mr. McDowell. From the time of the Title II order in 2015 
onward that they were having trouble raising money, because 
they would get questions. Same with the American Cable 
Association--ACA. They filed in the record that there were many 
of their members having trouble getting financing----
    Mr. Loebsack. And did you say----
    Mr. McDowell [continuing]. As well as municipal broadband 
companies.
    Mr. Loebsack. Did you say it was a survey of the small 
providers, that you said 70 or 80 percent of them are having 
trouble?
    Mr. McDowell. So that is the WISPA said about 80 percent of 
their members were having trouble.
    Mr. Loebsack. And that was a survey that was done on them. 
Is that correct?
    Mr. McDowell. Right. And then----
    Mr. Loebsack. And when was that survey done, specifically?
    Mr. McDowell. After the Title II order.
    Mr. Loebsack. But can you tell me when specifically?
    Mr. McDowell. Between 2015 and into 2017 when the FCC was 
collecting comments.
    Mr. Loebsack. I am sorry. I am a former social scientist, 
so I like to be precise about when things were done.
    Mr. McDowell. Yes.
    Mr. Loebsack. If you could provide that information to me 
in writing that would be fantastic because I would like to know 
those specifics.
    Mr. McDowell. In the FCC's records. I would be happy to get 
it for you.
    Mr. Loebsack. That would be great.
    Mr. McDowell. Same with the ACA filing. Same with the 19 
municipalities that said the same thing. Same with the 
independent Wall Street analysts who really have no dog in the 
fight. They said the same thing, that this is affecting--mainly 
because there are so many questions being asked.
    Mr. Loebsack. Right.
    Mr. McDowell. And I--you know, part of what I do is I help 
investors understand Washington, which is no easy task 
sometimes----
    Mr. Loebsack. And I will----
    Mr. McDowell [continuing]. And then other questions I would 
get or got----
    Mr. Loebsack. I really hate to cut you off, but I have a 
limited amount of time. I got to ask some other folks.
    Mr. McDowell. OK. Sure.
    Mr. Loebsack. Thank you so much.
    Mr. Green, would you like to respond to that?
    Please do.
    Mr. Green. Yes. We have not had any difficulty. In fact, we 
have had great success in terms of getting financing. I would 
say that the stability of net neutrality in 2015 even helped 
more.
    Mr. Loebsack. Right.
    Mr. Green. I would view it in that--in those terms, if I 
could.
    Mr. Loebsack. Yes. Thank you.
    Mr. Green. I don't know if that's specific enough for you.
    Mr. Loebsack. And maybe you could give me some specifics in 
written form, if you would, and I have 17 seconds left.
    Mr. Wood, I would like you to answer that question, too, 
and then whatever more you would like to say beyond the time 
here I would like to see that in writing and respect the rules 
of the committee here.
    Mr. Wood. Sure. But we do have some of that information in 
our written testimony. We had some in our previous testimony, 
too.
    I don't think there are very many specifics in what 
Commissioner McDowell gave you, with all due respected. WISPs 
said they had trouble getting financing.
    What we look at and what we looked at for Eastern Oregon 
Telecom and also 5 other ISPs who came to the FCC in December 
2017 and said that they had had trouble as well was we look at 
their deployment data that they file with the FCC and we look 
at the investor reports that the publicly-traded providers make 
to the SEC.
    What we see there are companies basically investing at the 
same level. Sometimes they go up. Sometimes they go down. But 
that is because of their upgrade cycles, not because of any 
impact of the rules.
    Mr. Loebsack. Thank you, Mr. Chair, for indulging my going 
over the time.
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes Mr. Shimkus for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    It is great to have you all here.
    Mr. Green, I just want to make a point. I did--a colleague 
one time--one time I had a colleague and we voted differently. 
Then he went on to explain to the media why he thought I voted 
the way I did.
    Obviously, I went to meet with him on the floor and I said, 
``I will define how I would vote, not you.'' I would caution 
you to comment in direct analyses of other people's business 
models and when the small providers in my district think that 
this is going to be harmful.
    And that is just a cautionary note because speak to your 
own business model. Don't speak to any other business model 
that you may or may not know who they are serving, how they are 
serving, and why they are serving it.
    Mr. Green. Duly noted. Thank you.
    Mr. Shimkus. Mr. Wood, we talked last time and I brought 
up--so Adam Kinzinger, our colleague here, is a National Air 
Reserve pilot. Flew two weeks on the southern border.
    My friends on the Democrat side want smart technology on 
the wall at the southern border. Part of that is National Guard 
deployment and that is kind of what Adam was doing.
    The panel last week all agreeded with Mr. Wheeler, who 
highlighted in his order that that ensured the protection for 
smart wall protections. All but one witness in the last panel, 
which was you and your--and the Free Press Action were opposed.
    I just want to give you an opportunity to correct the 
record if you are okay with that sort of prioritization since a 
smart wall is the proposal from my friends on the Democrat 
side.
    Mr. Wood. Thank you, Congressman.
    I think if I remember the question, it was about whether we 
supported two things--funding for a wall or for somebody to 
sort of----
    Mr. Shimkus. No, it was on smart wall technology and 
prioritization.
    Mr. Wood. Right. So the answer on prioritization--to stay 
away from the wall for a second--is that prioritization----
    Mr. Shimkus. Well, it is kind of defined the same. I mean--
--
    Mr. Wood. Right. Well, as I talked about last year----
    Mr. Shimkus [continuing]. That is part of the debate of--
part of it is the smart wall.
    Mr. Wood. Right.
    Mr. Shimkus. Smart technology, using electronics and so I 
don't want to----
    Mr. Wood. But what I testified to last year, sir, was that 
prioritization of public safety services is allowed. I don't 
know if the question was posed in a way that got people to 
answer with their opinions on the wall. We don't support the 
building of any wall----
    Mr. Shimkus. No, I am just talking about the smart wall 
technology on the wall. So you----
    Mr. Wood. So under the 2015 rules, prioritization of public 
safety services is definitely allowed. What's not allowed is 
charging the public safety services for that privilege.
    Mr. Shimkus. So you--so I think, if I hear what you are 
saying is, prioritization for public safety is allowable.
    Mr. Wood. That is not defined as paid prioritization under 
the rules.
    Mr. Shimkus. Well, it is prioritization.
    Mr. Wood. Right. The paid part--paid is an important word 
there, sir.
    Mr. Shimkus. It is prioritization.
    Mr. Wood. That is right.
    Mr. Shimkus. OK. Thank you.
    Mr. Wood. It could be if it is necessary.
    Mr. Shimkus. It is paid. It is prioritization.
    Let us go back, and I just do this because Anna Eshoo and 
I, we are really in the 911 space. This is not broadband, but 
this is FirstNet--FirstNet's premise is based upon 
prioritization. Companies use a system and then if their--the 
answer is this and if there is a need they push everybody off 
to allow first line responders to use that.
    Let me go to Mr. McDowell.
    Search engines provide content to consumers on the 
internet. When a consumer searches for content, do search 
engines prioritize the ads that are served to the consumers 
based upon paid prioritization?
    Mr. McDowell. They do. It is an algorithm. Yes. Absolutely.
    Mr. Shimkus. So this is--to Mr. Wood's word, this is 
actually where paid prioritization occurs?
    Mr. McDowell. There is paid prioritization all throughout 
the economy and is actually--it can be very efficient.
    Mr. Shimkus. So in your----
    Mr. McDowell. And consumers want it, in many cases. It is 
anti-competitive paid prioritization. That is the problem. So, 
we shouldn't conflate the two, all right.
    Mr. Shimkus. So in your communication and conversations--I 
was down for the Health Sub gavel--to Mr. Walden, you said edge 
providers play by a different set of rules.
    Mr. Green, so what are those different set of rules?
    Mr. Green. Well, first of all, thank you for the question.
    First of all, the provider--as the infrastructure provider 
and ISP, we are transport----
    Mr. Shimkus. No, I am talking about edge providers. This is 
your----
    Mr. Green. Yes. I am here to respond. That is not what we 
do.
    Mr. Shimkus. No, I know. But you--so, I want to know what--
since you know edge providers play by different rules--I mean, 
that is your statement you just made--what are they?
    Mr. Green. Correct. I am not an attorney. I don't make 
those rules.
    Mr. Shimkus. But you are the one who said edge providers 
play by different rules. So what are those different rules?
    Mr. Green. So the rules are different. We are a--okay.
    [Laughter.]
    Mr. Shimkus. OK. I got that.
    Mr. Green. Yes. Yes. We are a communication----
    Mr. Shimkus. Mr. Chairman, my time has expired.
    Mr. Green. OK. Thank you.
    Mr. Doyle. They are governed under a different set of rules 
than ISPs are is what I think he was----
    Mr. Shimkus. Well, if you will allow me to respond. He is 
the one who defined that and then he wouldn't answer the 
question.
    Mr. Doyle. I think--I think he responded appropriately.
    OK. Who is next? The Chair recognizes Mr. Veasey for 5 
minutes.
    Mr. Veasey. Thank you, Mr. Chair, and before I ask my 
questions I just want to clarify. I know that the gentleman 
that just finished asking questions said that he didn't want 
his thoughts interpreted wrongly.
    And so I don't want us to call each other names on the 
committee, but I think he said Democrat Party, which is a kind 
Republican operative type word, and it is the Democratic Party.
    So if he is going to refer to us he ought to refer to us 
correctly if he doesn't want his thoughts being interpreted the 
wrong way.
    I wanted to ask Ms. Ochillo a question, because you 
mentioned the Lifeline program which I think is a very 
important discussion that needs to be had in this entire 
debate.
    And when you start thinking about the Lifeline program and 
who it serves, which is a lot of the constituents in the 
district that I represent, I wanted to ask you, about 50 
percent of Americans with households under $30,000 have 
broadband and as a--as a good friend of mine that was very 
wealthy that has passed away now from Texas had said, if you 
make $30,000 a year and you don't have to pay one cent in 
taxes, you probably--especially if you have kids, you probably 
still don't have any money at the end of the month.
    And so I wanted to ask you how do you think that having 
this service disrupted in any way would undermine the routines 
of these families that make under $30,000 a year? Because that 
is a big number.
    Ms. Ochillo. Yes, and thank you so much, Congressman 
Veasey.
    I want to make sure that I frame the background to this 
because this is--forgive me, this is my first hearing and some 
of what happens the--maybe the tone of the dialogue--people in 
my home state they don't care about Democratic or Republican. 
They don't care about Title II or net neutrality.
    What they care about is that they have access and that 
their families can apply for jobs online or that they can apply 
for scholarships to go to school so that they have a way out of 
poverty.
    And then you mentioned the statistics. Just to give 
background, when you're talking about Latino communities, 30 
percent of Latinos do not have access to broadband of any kind 
and when you talk about the non-English-speaking groups, that 
number even goes higher.
    When you're talking about tribal groups, we have literally 
60 percent of Americans who do not have access to any 
broadband. So when there are programs like Lifeline that are 
basically--their legal foundation is Title II and the FCC has 
an obligation to connect these disconnected people, that is 
life or death for some of them.
    The Lifeline program in times of hurricane is what gives 
people a way out to actually get access to FEMA and make sure 
that they can fill out their applications for students. 
Sometimes it is the only way that they can access to broadband 
to do their homework. For some families, that is their only 
opportunity to connect, maybe to apply for jobs or to get 
healthcare.
    So, it is so important that we fund not only just Lifeline 
but even start being more imaginative about the way that we 
connect people because Lifeline is not enough. But right now, 
it is the only program that is connecting people to telecom 
services.
    Mr. Veasey. Yes. No, thank you very much, and you mentioned 
something very important. Seven out of 10 children do their 
homework--need broadband access to do their homework.
    My son is one of those students. He is in 7th grade and 
much of the homework that he does that's required and most of 
the kids at his school are on free and reduced lunch, they have 
to have this program.
    I wanted to ask Mr. Wood a question. You know, one of the 
things that happened by the FCC chair was that he reversed a 
decision made by the previous chair that allowed nine new 
providers of Lifeline into the program.
    Of course, most of the people that offered this Lifeline 
they are resellers. They are not a lot of the big companies 
that we know about.
    Can you please just sort of touch on, very briefly, by 
taking the competition out by the current chair--removing the 
competition and making it harder for these new providers to--or 
resellers to provide Lifeline--what that has done to the entire 
program and what it has done to undermine it?
    Mr. Wood. Yes, sir. Thank you for the question. I think 
that is a great follow-up to the last one.
    As you said, one of the consequences of this FCC's fight 
against Title II and the sound basis it provides for Universal 
Service was that they tossed out of the Lifeline program nine 
providers who are either already providing or willing to 
provide a broadband-only service.
    And so what they have done is by getting rid of Section 254 
and also swearing off Section 706 of the Telecom Act as the 
source of authority they have said, well, if existing 
providers--if the existing phone company wants to provide 
broadband, that is fine.
    They can use USF money for that. They really have no way to 
require them to provide that service and in fact, as you noted, 
when a company wants to only provide broadband and not a 
telephone service, historically, they may not even be eligible 
for that Lifeline or any other Universal Service funding.
    So, we think that is a problem for keeping out new entrants 
and innovation.
    Mr. Veasey. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Doyle. Thank you.
    The Chair now recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair, and welcome to our witnesses. 
A very special welcome to Chairman McDowell. My wife, who I 
have been married to for 25 years, is a Duke Blue Devil, and 
just like you, she will never buy another pair of Nike shoes 
because our star--his shoes blew apart--Zion Williamson--
against their arch rivals, North Carolina, 30 seconds into the 
game.
    Mr. McDowell. They will be back. Don't worry.
    Mr. Olson. OK. That is off my chest.
    I am very concerned about returning to the so-called 
Wheeler Title II rule. We keep playing ping pong with net 
neutrality, just back and forth, back and forth, back and 
forth. That means the market is unstable, it is unsure, and, 
sadly, the majority party had little outreach to us on our side 
of the aisle, which means this bill will die--in the Senate. It 
is dead.
    And so this is just plain messaging and the people who use 
it need real rules. They need this thing to work. But, again, I 
don't think it is going to happen with this bill.
    My question is for you, Mr. McDowell. In the Title II 
order, the FCC, led by Chairman Wheeler, recognized that 
sponsored data programs are pro-consumer because they allow 
consumers to watch and listen to their favorite content without 
being charged for data.
    All right. But the FCC also put them under the, quote, 
``general conduct standard,'' end quote, and opened quote, 
``bureau investigations,'' end quote, in the companies who 
offer these pro-consumer plans under the vague general conduct 
standards.
    How does the threat of these investigations impact a 
company decision looking to innovate with the internet?
    Mr. McDowell. So what that does is create an atmosphere of 
what we call ex ante regulation, which is before the facts, or 
``Mother may I.''
    So before an innovator wants to do something they were 
having to go to the FCC to make sure it was okay to do that, 
other than, you know, just trying to experiment in the 
marketplace and say here is a sponsor data plan or zero rating 
and things of that nature, which are very popular with 
consumers.
    So that slowed down innovation and the rollout of some 
experimentation that consumers ended up liking.
    Mr. Olson. And a follow-up to that question. Since the FCC 
restored the long-standing Title I classification in May of 
2017, ISPs are no longer being scrutinized for every pro-
consumer innovative offering they might introduce to the 
market.
    What innovations do we have now today that we might not 
have had we let the general conduct standard still be in 
effect? And specific examples of what this bill may do, once 
again?
    Mr. McDowell. So what is interesting about this debate is 
sometimes we don't know what does not make it to market because 
it didn't make it to market, right?
    So now we do have an environment where there can be 
experimentation in things like zero rating or sponsored data so 
long as it is not anti-competitive, and I think the word anti-
competitive has to be part of this conversation because there 
is the Federal Trade Commission Act, the Clayton Act, the 
Sherman Act, common law tort law, common law contract law, and 
other things.
    If there were violations of any of those, there would be 
investigations by the Federal Trade Commission and there have 
been some over the years in this space.
    So it is important to make sure when we talk about either 
discrimination or the offering of services, is it competitive 
or anti-competitive, is it pro-consumer or not, and that is 
really the litmus test.
    Mr. Olson. Any specific examples of how a business might 
have stepped out because of concerns about the Wheeler rule, 
just all these things----
    Mr. McDowell. So there were some offerings such as Binge On 
by T-Mobile, which was held up for a while while the FCC 
investigated and that is now a thing in the marketplace--a very 
popular service offering--which is not anti-competitive. It is 
pro-competition. It is pro-consumer and consumers seem to love 
it.
    Mr. Olson. And competition drives prices down, encourages 
innovation, and just good, good, good. The free market works, 
works, works.
    Mr. Chairman, I will bank 45 seconds.
    Mr. Doyle. I thank the gentleman.
    The Chair now yields to Mr. McEachin 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman, and thank you for 
pulling this hearing together today.
    Mr. Chairman, as you know, I am a new member on this 
committee. I am also a forming lawyer, and what that means or 
what I hope that means is that I am not necessarily burdened by 
the knowledge of the past since I wasn't here for a lot of it. 
But I am also intrigued by the past.
    And last month, Chairman Wheeler really captured my 
imagination and my attention when he discussed the fact that we 
really dealing with 600 years of English common law or English 
jurisprudence--600 years--of that if for some reason some of my 
friends here on the other side of the aisle want to just toss 
it out of the window and forget it ever happened.
    Mr. Wood, based on building on Mr. Chairman Wheeler's 
testimony, would you please speak to the points of common 
carrier protections to the openness of what is the most 
powerful technology in this era?
    Mr. Wood. Certainly, Congressman. Thank you for the 
question.
    I think you are exactly right. Common carriage law is a 
time-honored tradition, but it is one that is still vital. I 
think the big difference that we are not hearing about so far 
in this hearing is the difference between common carriage law 
and antitrust law or other consumer protections statutes, and 
that is that common carriage law and the Title II foundation 
for the net neutrality rules that we look to restore here 
protect everybody's speech on the internet.
    So a common carrier cannot discriminate against their 
individual users and they are not just prohibited from 
interfering with competition but with any free and open use of 
the transmission capacity that they sell.
    And so that is why I think it is true that, yes, the big 
edge providers do play by a different set of rules, as we have 
heard, but they are speakers. They are publishers. They are 
aggregators. They are users on the edge of that common carrier 
network.
    There could be some debate to be had about which of those 
companies are transmitting speech. I don't think we have the 
answer to that right now. But what we do know is we need common 
carriage law to preserve that open transmission pathway that we 
have had for decades and even centuries on many of these 
infrastructures you are talking about.
    Mr. McEachin. Thank you. And as a follow-up, how does the 
Save the Internet Act ensure the important aspect of common 
carrier law are kept in place while many of those that need to 
be omitted because they are outdated?
    Mr. Wood. Well, it does that, sir, by restoring the 
provisions that the FCC kept in the 2015 order and that does 
include Title I--excuse me, Section 201 and 202--what we said 
the necessary cousins. Is that the phrase we are using?
    I wouldn't say those are--that is a bad thing. For me, that 
is a feature, not a bug. I don't think most internet users or 
most of your constituents are worried about Comcast's hands 
being tied or AT&T's or Verizon's.
    What they want is somebody to be able to step in and act as 
a watchdog when a company does abuse those kinds of privileges 
that they can take under the current lack of any rules.
    And so you talk about zero rating. In my testimony, I cite 
examples of research saying that zero rating actually makes 
costs go up for wireless users. There may be no such thing as a 
free lunch, and when these wireless companies say we will put a 
data cap on you but then we will exempt you for some of those 
purposes, that, to us, doesn't sound like a great deal.
    What we have seen in the market since the 2015 rules came 
into place, not just because of them but thanks to them and 
thanks to other developments, as we've seen, a return to 
unlimited data on wireless programs and wireless carriers 
service offerings.
    So, we actually think that giving people the data they pay 
for and letting them use it for what they want is a good thing 
and not something to be worried about. In fact, it is exactly 
what we all need.
    Mr. McEachin. And I thank you for that and thank you to all 
of our witnesses.
    Today's high-speed internet services are intimately tied to 
social mobility, economic quality, and community growth. As 
such, we must ensure that access to internet services remain 
open and not dependent on one's ability to pay.
    The Save the Internet Act does just that. I look forward to 
it becoming law.
    Thank you, Mr. Chairman, and I will yield you a whole 
minute, Mr. Chairman.
    Mr. Doyle. I thank the gentleman.
    We will now recognize Mr. Flores for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman. I appreciate the 
witnesses for joining us today.
    In a letter that I would like to submit for the record, the 
chairman of the Vermont Telephone Company, or VTel for short, 
notes the very direct connection between its investments and 
the light touch that the FCC reinstituted in 2017 and that VTel 
would not have made the decision to invest millions of dollars 
on Ericsson 4G and 5G upgrades in the absence of restoring 
internet freedom order.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Flores. Thank you, Mr. Chairman.
    Mr. McDowell, Ms. Ochillo talked about the digital divide 
and I am glad you brought that up.
    Mr. McDowell, what impact would Title II classification 
have on broadband investment when it is needed most to close 
the digital divide?
    Mr. McDowell. Well, as we have seen and we can debate, but 
as we have seen in the FCC's record and the record of the 
hearing here a few weeks ago as well as today, there are a lot 
of rural carriers, in particular--not that this is just a rural 
issue--who felt as though their ability to raise revenue to 
build out for mainly residential consumers was impaired by the 
Title II regime.
    But, overall, let us keep in mind that the FCC has an $8 
billion Universal Service Fund and under that umbrella are a 
lot of other funds and Lifeline was one that I defended 
vociferously when I was at the commission. I was worried about 
its fiscal long-term health in 2012.
    But we also expanded the support of Universal Service to 
broadband to advance services which, by the way, Section 254 
allows for, and I know if Congressman Pickering were testifying 
today--because he helped write 254--he would agree with that.
    So in the fall of 2011, we actually had a unanimous 
bipartisan decision, the only one of its kind in FCC history to 
expand Universal Service support to broadband and, ultimately, 
to the Lifeline recipients as well.
    So that is a huge component of this. Sometimes the market 
does not work for everybody and that is what the Universal 
Service Fund is there to do.
    Mr. Flores. Continuing on this subject, Mr. Wood's written 
testimony claims that just because small providers continued to 
invest in their networks while Title II was in effect that 
Title II did not hurt them.
    The challenge with that is that these investment decisions 
are made far in advance. How far in advance do you think these 
decisions are made?
    Mr. McDowell. They could be sometimes years in advance. 
But, and again, I am going to enumerate--I dug through my 
folder here--there is Gigabit Minnesota, there is Shentel, 
there is Schurz, there is Sjoberg's, there is CATV 
Telecommunications.
    There are a lot of smaller outfits who filed in the FCC's 
record saying that Title II impaired their plans. There are far 
more smaller companies--ISPs--that said that than others.
    Mr. Flores. That is right, and I appreciate you helping us 
make sure we have a holistic record of the investment decisions 
that were made when Title II was--when the 1930s-era statute 
was slapped on the internet.
    And that is important to me because about 90 percent of the 
land mass in my district is rural and I care about closing the 
digital divide. I would like to see rural America have just as 
much access to capital and technology as my constituents do 
that live in urban and suburban areas.
    And it is unfortunate that we are having a messaging bill 
today instead of one of the three bills that would actually 
solve the issues that have been complained about and that is 
the blocking and throttling and paid prioritization.
    And so this bill has no chance of passage and so I think we 
would be better spending our time on something else.
    During our hearing a few weeks ago, I had the opportunity 
to ask former FCC Commissioner Powell about the possibilities 
of further Government intrusion under a Title II regime. 
Chairman Powell shared my concern that under Title II the 
Government could eventually set prices or direct investment 
decisions of private entities.
    Looking at the bill that we have before us today, Mr. 
McDowell, could some--has the Democrat proposal that we have 
before us have they safeguarded against these possibilities of 
changing prices or regulating prices or investment decisions?
    Mr. McDowell. I am sorry. Could you repeat the question?
    Mr. Flores. Yes. Let me--let me rephrase it. The Democrat 
proposal today, is it safeguarding against the ability of the 
FCC to set prices for internet services or to direct the 
investment decisions of private entities?
    Mr. McDowell. The concern with inviting the Title II beast 
into your tent is even if you only have a few claws of it in 
the tent it is a pretty big and strong beast.
    I am an attorney in private practice. I think there would 
be tons of appellate work. I should be all for this, selfishly, 
but I am not because I know that there will be tons of appeals.
    But let me say something real quickly, if I may, that is 
counter cultural, which is actually I have faith in this 
Congress. I have faith that you can find common ground on this 
issue.
    I don't think this is the bill for it. But I think you can 
do this, and you can find 60 votes in the Senate, and I am not 
just being naive saying that.
    Mr. Flores. Well, and I agree with you and this committee 
has a long history of bipartisanship. This bill is not that.
    So thank you. I yield back the balance of my time.
    Mr. Doyle. I thank the gentleman.
    The Chair now yields to Mr. Soto for 5 minutes.
    Mr. Soto. Thank you, Chairman. I want to start by having 
everybody take a deep breath and exhaling. I know the stakes 
are high but, you know, let us start by a perspective and what 
this bill is, which is an opening offer as we negotiate these 
very complex and important rules.
    We are going to conduct hearings, yes, more than one. This 
is the internet. So, I think we could have even a half a dozen 
hearings and that may not be sufficient about the information 
we need to get.
    We will have a markup so this bill is not just messaging. 
It will be an opportunity for amendments. I, for one, am open 
to amendments and we have heard some good ones here today.
    The Senate appears open to negotiate after passing a 
similar CRA. So this idea that there is no chance of passage is 
also not true. We were asked by the public to create basic net 
neutrality rules and this bill is a start to doing that.
    In addition, we were asked by industry to create a new 
chapter and this bill will create a new chapter. Don't you 
think the internet deserves its own chapter? I mean, it is so 
all-encompassing.
    And then we were asked to make sure there was some parity 
between the ISPs and edge providers and this bill does that 
through memorandums of understanding and that was sort of a 
confusion. So, I want to clarify what our staff has explained.
    By reinstating the 2015 that applies Section 201 and 202 of 
the Commutations Act that creates a standard to prevent unjust 
and unreasonable and discriminatory network practices. This 
would apply to everyone--edge providers and ISPs. Those were 
two recommendations from business in the space that we are on 
the road to meeting.
    But I want to get some consensus on some of the things this 
bill does. By a show of hands, how many of you are opposed or 
believe this bill should give FCC regulation over blocking?
    Raise your hand if you believe that the FCC should, under 
this bill, be able to stop blocking? Raise your hand.
    Mr. Wood. Blocking by regulated entities, sir. But yes.
    Mr. Soto. OK. And how many of you believe the FCC should 
have the authority to regulate throttling? Raise your hand. 
Raise them a little higher. Come on, everybody.
    Mr. McDowell. You're saying under this bill. Is that right?
    Mr. Soto. Under this bill.
    Mr. McDowell. OK.
    Mr. Soto. OK. How many of you support the FCC having the 
ability to stop paid prioritization? Raise your hand if you 
support that. OK. How many of you believe there should be FCC 
investigatory power for consumer and business complaints given 
to the FCC? Raise your hand.
    OK. And fines for violations? Raise your hand.
    Thank you. I want to personally thank the chairman for 
reviving FCC authority to fund rural broadband and Lifeline. 
That is important for areas of my district like south Osceola 
County and Polk County that, obviously, are really important.
    There are a series of concerns that Congressman Latta 
brought up which I think we do need to hash out. Mr, Doyle has 
already said that setting prices and rates, dictating capital 
investments has now been part of the bill--is now part of what 
the intent of this bill is.
    So, Mr. McDowell if we explicitly put in place exclusions 
saying that the FCC shouldn't be setting pricing arrays or 
dictate where ISPs or edge providers have to put in their 
capital, would that make the bill more palatable, in your 
opinion?
    Mr. McDowell. I wouldn't be able to endorse it. I think 
this Congress can do better than that. I think we can do better 
than relying on Title II. I think the internet, to your point, 
deserves its own chapter and Title II is not the internet's 
chapter.
    Mr. Soto. But you do agree this isn't the old telephone 
company model where people have a monopoly and we would need 
these pricing rates and that it would greatly improve the bill 
if there were--if we were explicit in these two areas?
    Mr. McDowell. If the intent is to fashion something new, 
then let us fashion something new. But taking a couple of piece 
parts of Title II isn't the way to go.
    Mr. Soto. I would like to give each of our other 
witnesses--give us one suggestion you would like to see in the 
bill, starting with Ms. Ochillo.
    Ms. Ochillo. If I were to add something to the bill, I 
would like to see that the FCC had some sort of obligation to 
actually disclose how their--how effective their Universal 
Service programs actually are. So, they should have an 
obligation to do so as well as to actually create incentives 
for deployment explicitly.
    Mr. Soto. Thank you.
    Mr. Green.
    Mr. Green. Not some but all protections.
    Mr. Soto. OK. Mr. Wood?
    Mr. Wood. I don't think, Congressman, there is anything to 
add because we supported the 2015 rules and we don't think, as 
I said in my testimony, there are people who do face a monology 
today.
    But we do have a long track record under Title II with 
wireless voice and business broadband services where there was 
not after the fact rate regulation for more than two or three 
decades now at the FCC.
    So, we don't really think that is a realistic danger or one 
that your constituents should fear or would look askance at.
    Mr. Soto. Thanks. My time has expired.
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes Mr. Walberg for 5 minutes.
    Mr. Walberg. I thank Mr. Pallone and thank you to witnesses 
for being here.
    A little over one month ago we sat here in this room, as 
has been noted, discussing net neutrality. Here we are again 
and already over the half of the hearings I have attended on 
this subcommittee have dealt with net neutrality and it is only 
March.
    The last time around, my Republican colleagues introduced 
three net neutrality bills to kick off discussion on a 
potential legislative solution that would preserve 
congressional prerogative over agencies to which it delegates 
authority.
    And, unfortunately, it looks like we are going the opposite 
direction--truly back to 1930s or Ma Bell-type-regulation that 
I am old enough to remember.
    I am glad we are past that, in most cases. As legislators, 
Congress must be clear about what authority the FCC has and 
does not have when we think they failed. This seems to be a 
clear case where Congress must cut through the uncertainty that 
is hampering broadband investment in places like my district--a 
rural district--and not rubber stamp an old commission's 
decision.
    Codifying existing commission action doesn't seem to be a 
serious attempt to legislate this issue as the title of this 
hearing suggests and falls short of delivering the expectation 
of a free and open Internet our constituents desire.
    I expressed my willingness last hearing to work across the 
aisle on this issue and I remain willing to have that 
discussion today. But while I respect the commission as an 
expert technical agency over communication issues, I firmly 
believe that ultimately Congress needs to provide the certainty 
and clarity that consumers demand.
    Mr. McDowell, you refer in your testimony to some 
legislative efforts as zero-sum, implying that in order for one 
faction to win others must lose. Can you explain what parts of 
this debate are not zero sum?
    Mr. McDowell. And, sir, my testimony is referring mainly to 
the regulatory actions at the FCC.
    So, Title II does bring uncertainty. It does bring 
uncertainty to the investment community, to analysts, to the 
folks making the loans, to Internet service providers. That's 
just a fact. That is just the case.
    So that becomes zero sum. So when you bring in Title II and 
whether the intent is to have the specter of rate regulation or 
not in this particular bill, there will still be questions 
about that because lawyers will get paid to find the maximum 
path forward of that language as well as others on the other 
side to try to make it as narrow as possible.
    So zero sum, when you start--it starts coming into play 
when you talk about Title II in this regard. I think that if 
you were to take Title II off the table and start with some 
principles, which I think everyone in this room shares--those 
core principles that I talk about in my testimony--then you 
have a chance at a large bipartisan majority to get through 
those 60 votes in the Senate so something could actually become 
law and last for decades.
    Mr. Walberg. And so following that up, does the bill before 
us today or any other net neutrality legislation like the bills 
introduced by Republican leaders Walden, Latta, or Rodgers 
incorporate features that are not zero sum that everyone has 
agreed on?
    Mr. McDowell. So for you Star Trek fans, there is an old 
Vulcan saying that says only Nixon can go to China. So let me 
say this, which is the 2010 FCC order, I think there are many 
parts of that which--some of which are echoed in the Latta bill 
could be the nucleus for some successful legislation.
    Mr. Walberg. Can each of you down the line, starting with 
Ms. Ochillo, quickly answer if you think this issue is zero 
sum.
    Ms. Ochillo. I don't. I don't think is a zero sum. No.
    Mr. Walberg. Mr. Green?
    Mr. Green. I don't think----
    Mr. Walberg. My time is running out.
    Mr. Green. I don't think that it is a zero sum.
    Mr. Walberg. Mr. Wood?
    Mr. Wood. Yes. I am not sure that we all understand the 
question, sir, but I do think that this is a net positive is 
what I would call it. Setting the rules straight again and 
making it certain to people that they can say what they want 
online and see what they want online without interference by 
their ISP but, as my testimony shows, with no interference to 
broadband providers' investment decisions, despite what we have 
heard today.
    Mr. Walberg. And I would suggest if that is what we were 
doing I could agree with you, but I can't.
    I yield back 90 seconds.
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes Mr. O'Halleran for 5 minutes.
    Mr. O'Halleran. Thank you, Chairman Doyle, and my 
colleagues on this subcommittee for continuing this critical 
conversation on how we can codify important bright line 
protections for consumers on the internet while promoting 
innovation in every corner of the internet ecosystem.
    At our first hearing on this issue it was clear that broad 
support exists when it comes to making the principles, we all 
care about permanent.
    Today, I look forward to examining the Save the Internet 
Act with that same spirit. Everyone on this committee 
understands the necessity for protecting access to broadband 
for our communities and our economy.
    As I have previously said, I want to see a permanent 
solution that is enforceable, robust, and has lasting 
protections for consumers and our small businesses.
    Mr. Green, as someone who represents an incredibly rural 
district, as I do--I know up in Idaho you have many of those 
same type of districts--I would like to thank you for your 
organization's work in serving rural communities in the western 
United States including some in Arizona with critical access to 
the internet.
    In your experience, how are small businesses in rural 
communities impacted by a lack of certainty regarding net 
neutrality rules?
    Mr. Green. Thank you for your question, Mr. Congressman.
    I think that, obviously, the business that we are in is 
delivering service to a community that is requiring demand. 
Demand is creating this need. So, we are a for profit business. 
So I will start with that, to try not to take up your time.
    But I will also say that as we build that business and 
enterprise network for your business communities, surrounding 
communities, for education, for economic development, we also 
provide connectivity in and out of that community so that you 
have access to the internet.
    Let us just hope that one day a child, someone in college, 
someone working from home, will get a better education.
    Let us hope that maybe someone, some young talented 
individual will create the next Netflix in a rural market that 
you live in and you support like Netflix and that sort of, 
quite frankly, is really one of our goals.
    Yes, we are for profit. We are a business. But at the end 
of the day, if the outcome is that a child can have the same 
access in your community that they can in New York, in any 
other markets in the United States, then we have done our job.
    Mr. O'Halleran. There is nothing bad about for profit. I 
think that is a good way to invest in America and invest in the 
future of America.
    But I guess I am coming from the perspective that there is 
a sentiment within our country that rural America is kind of--
well, they are out there. We know they are out there.
    But, you know, for them to participate is just going to 
cost way too much money. It is not going to get us where we 
need to be and, yet, at the same time we need everybody in the 
workforce up to the highest level we can as far as education.
    We need good health services. We need people to fully 
understand the connection between our entire country, not just 
parts of our country at the same level. And I heard some 
discussion earlier about, well, you are mostly for businesses.
    Well, if you get in to the communities in my area, and 
others can get links to you, then you are for everybody in that 
community and that is a critical element and that investment is 
important to each and every one of those communities.
    Mr. McDowell, I agree with your statement that the time has 
come for Congress to provide clarity and certainty by enacting 
new legislation with regard to neutrality rules.
    Now, I haven't been here for your entire testimony and you 
have brought up a lot of ideas and concepts that I would like 
to hear more about.
    But I also have noted that a lot of what you have talked 
about is kind of, as they would say, in the cloud and not 
specific to how you personally would like to see this type of a 
bill address the issues that you do not agree to.
    Mr. McDowell. Thank you, and first of all, happy early St. 
Patrick's Day to you.
    Mr. O'Halleran. And the same to you.
    Mr. McDowell. Thank you, sir.
    So as a starting point, I want us to listen to the Supreme 
Court from 2005 when it talked about Title II reclassification. 
It said, quote, ``Title II reclassification was subject to 
mandatory common carrier regulation of all information service 
providers that use telecommunication as an input to provide 
information service to the public,'' end quote. That's at 
U.S.--545 U.S. at 994. I think that is important.
    Mr. O'Halleran. Mr.--I am sorry. My time is up and we will 
get back to it another time.
    Mr. McDowell. OK. Thank you.
    Mr. O'Halleran. Thank you, Mr. Chairman. I yield.
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    I want to talk like--again, I know some of the members 
before asked but I want to start again with this issue. 
Clearly, the FCC needs congressional authority to prevent these 
huge swings of all--again, of all or nothing rule under the 
Title I or Title II.
    If we are all in agreement that we must prevent blocking 
and throttling of service--and I think we are all in 
agreement--then let us codify those consumer protections and 
let us do it now in a bipartisan fashion. I believe that is 
what the people want, in my opinion.
    What I am afraid of for my constituents is the open-ended 
forbearance that the 2015 order, H.R. 1644, puts in place.
    Mr. McDowell, under the 2015 order, if the current FCC 
decides to forbear a particular Title II regulation, does 
subsequent FCC leadership have to abide by that decision?
    Mr. McDowell. Under the 2015 order, no.
    Mr. Bilirakis. No? OK.
    Under the current law, internet users are protected from 
the Universal Service fee by statute. Is that correct?
    Mr. McDowell. Correct, essentially. Yes.
    Mr. Bilirakis. OK. Essentially. OK.
    Florida greatly benefits from this protection so as we are 
already a payor. So, we are a payor state into the Universal 
Service Fund and do not receive--we don't receive our 
proportionate share of benefits. That is the case in a lot of 
matters, unfortunately.
    Again, Mr. McDowell, if passed, would H.R. 644 remove this 
protection and potentially allow the internet to be subject to 
U.S.F. fees?
    Mr. McDowell. So the 2015 order equated IP addresses--
internet protocol addresses--with phone numbers. That not only 
had implications potentially for Universal Service--for 
contributions--I will call it taxation, although that is 
controversial for me to say that--for Universal Service 
purposes but also internationally as well for just 
international intergovernmental regulation of internet 
services.
    So there is that potential, again, that when you start 
talking about Title II, as I was saying earlier, and that is 
the backdrop, it starts to bring up all of these questions and 
that is why I think you need to erase the white board and start 
clean.
    Mr. Bilirakis. OK. Thank you very much.
    I yield back, Mr. Chairman. Thank you.
    Mr. Doyle. I thank Mr. Bilirakis.
    Let me just say for my colleagues, for the record, that 
when the--Mr. Bilirakis asked if a future FCC Commissioner 
could unforbear the--once again, Mr. McDowell correctly 
answered that under the 2015 Open Internet Order that answer is 
yes. But under this bill that answer is no because this bill 
puts in statute that forbearance and only an Act of Congress 
could do that.
    Who is next? Oh, I see the Chairman of our full committee 
has returned and we yield 5 minutes to Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chair.
    Net neutrality is really about the core values that 
Americans hold dear--free speech, competition, innovation.
    I wanted to ask Mr. Wood, I know these ideas are important 
to Free Press. Can you discuss how the Save the Internet Act 
would promote free speech and economic opportunity for small 
businesses and how that compares to the Republican neutrality 
proposals that we have seen recently?
    Mr. Wood. Sure, Chairman Pallone. Thank you very much for 
the question.
    We have heard today that the FCC rules could be a sort of 
``Mother may I'' for ISPs. I don't think that is actually true, 
based on the conduct of the FCC.
    The last thing we want and the reason we are so much in 
support of these rules is we can't afford a ``Mother may I'' 
for American businesses.
    So what these rules do is they provide that open pathway 
that people have always had to start a business, to get 
educational opportunities, to say what they want, to organize 
for change, without having to get the cable or telephone 
companies' permission and that is a good thing. It keeps in 
place the rules we've had albeit on a shifting legal framework 
over the course of the last decade and a half.
    Mr. Pallone. Thank you.
    Ms. Ochillo--I hope I am pronouncing it properly--it is 
incredibly important to this committee that we help every 
American be able to afford the incredible power that comes with 
broadband internet access and I know making sure more people 
can access a wide array of material on the internet is key for 
the National Hispanic Media Coalition.
    So my question is can you explain how the Save the Internet 
Act would help low-income folks get access? And I have heard 
some say that without net neutrality poorer Americans will be 
relegated to second-class status online, only being able to 
afford junk internet plans. So what do you think about that? 
How would the bill help low-income and what about without 
neutrality what would happen? Would they just get junk plans?
    Ms. Ochillo. To the first part of your question--thank you, 
Congressman--I do want to tie it to something that I said when 
Congressman Soto asked me about what I would add to this, and 
since we are in the spirit of compromise and talking about 
things that we can do to make it better, I think that we should 
think about putting in protections for Lifeline and, 
specifically, Lifeline, as I have mentioned over and over 
again, is one of the only programs that people have to get 
access to telecommunications and there are no other Federal 
agency--there is no one who is dreaming up any other programs.
    To why net neutrality is helpful to people who are 
currently denied access, I think we need to be honest about the 
fact that when there are--when there is no net neutrality in 
place, even though it will be hard to detect at first, ISPs are 
going to slowly start to rise--like, prices will eventually 
start to rise.
    They are going to start putting in more tolls to access. If 
they say you have a Comcast plan, but you want to have Netflix, 
you want to have Hulu, it is going to cost you maybe instead of 
a $10 add-on it might be $12. And I think that it is important 
to note that when the net neutrality repeal was announced back 
in November of 2017, that day Comcast actually removed from its 
website its three-year pledge against paid prioritization. Not 
the paid prioritization that is helpful for safety but paid 
prioritization that costs consumers more for the things that 
they access now.
    So, I think that we would be fooling ourselves if we 
thought that if we just left it to internet companies to 
regulate themselves that we wouldn't eventually pay more 
because when the cable companies went and interrupted the 
broadcast in 1960s, they were supposed to be offering new 
competitive and diversity and all sorts of things.
    And 20 years later, they started bundling packages and 
saying, I think the consumers in this section of the country 
want to watch X and I think that you should pay Y because this 
is what this provider is charging you.
    So I think that it is just--we have to have an honest 
conversation that eventually that will trickle down to 
consumers.
    Mr. Pallone. I appreciate that, and I have one last 
question for Mr. Green.
    At our last hearing, we heard some argue that we shouldn't 
have strong net neutrality protections because they would 
undermine investments in networks.
    But I find that hard to believe, since we saw the Financial 
Times report recently that the big four broadband companies 
invested less in capital projects last year after the repeal of 
net neutrality protections, undermining the Trump FCC's 
reasoning for doing away with the rules.
    So, Mr. Green in your experience, as an internet service 
provider, should we believe these arguments that strong net 
neutrality, like those that the Save the Internet Act would 
reinstate, would undermine network investment, and why or why 
not?
    Mr. Green. Demand is driving the investment. That is just--
the end of the day, it is the economy. If there is demand and 
there is a need, people like myself in business, entrepreneurs, 
will find the capital and the resources to create a return for 
their investment and compete in a fair marketplace.
    Mr. Pallone. So, you don't think that reinstating the rules 
under the Save the Internet Act would undermine network 
investment at all? You don't see that being linked?
    Mr. Green. No, I do not.
    Mr. Pallone. All right. Thank you so much. Thank you, Mr. 
Chairman.
    Mr. Green. You are very welcome.
    Mr. Doyle. I thank the gentleman.
    The Chair now recognizes Mr. Long for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And Mr. McDowell, Title II is intended for common carriage 
networks such as the state-of-the-art telegraph and railroads. 
But what strikes me is that with each network revolution the 
old rules no longer make sense and new rules were needed.
    That is exactly why we need 21st century rules for a 21st 
century service, not rules from the 1930s for rotary telephone 
service.
    From your vantage point, what are the risks to regulating 
the internet in the same way as common carriers?
     Mr. McDowell. Thank you, Congressman. So excellent 
question.
    So, you know, the history of common carriage goes back to 
the idea of natural monopolies like a canal. You dig a big long 
ditch, fill it with water, and it is the shortest point 
between--distance between point A and point B.
    The telephone system was considered to be a natural 
monopoly because of the telephone poles and the wire you had to 
string up, or railroads--again, the shortest point between 
point--shortest distance between point A and point B.
    And then that common carrier regulation really started with 
the Interstate Commerce Act of 1889 in our country for 
railroads and then was applied to airlines and trucking, et 
cetera and we still have the 1934 Act, obviously, with the Ma 
Bell monopoly.
    But things are different with the internet and it was 
actually during the Carter administration--Jimmy Carter's 
administration--where a lot of these common carriage statutes 
and regulations started to be regulated. So railroads, 
airlines, trucking--those were all deregulated under the Carter 
administration.
    We saw investment go up. We saw transit time go down for 
the transportation sector. We saw consumer choice go up. A lot 
of what is advertised to be the benefits of common carrier 
regulation it is actually the opposite.
    So what does that tell us? That tell us that transit times 
were slower under common carrier regulation. Prices were 
artificially higher under common carrier regulation. Consumer 
satisfaction was lower. They just didn't know it because that 
was the only choice at the time.
    So those are some of the problems with common carrier 
regulation.
    Mr. Long. OK. Thank you.
    And, Ms. Ochillo, while you were speaking to Chairman 
Pallone a minute ago, you said, when we are in the spirit of 
compromise. Some others have said compromise and they call it 
bipartisanship at a earlier hearing.
    When we are in the spirit of compromise, do you think 
attacking people on Twitter is a good idea or a bad idea?
    Ms. Ochillo. Sir, respectfully, I don't attack people on 
Twitter any day of the week. So, I don't ever do something like 
that.
    Mr. Long. I appreciate that. Thank you. I am glad that you 
don't attack people on Twitter.
    Mr. Wood, one question comes to mind is Free Press was--I 
don't know if that was pun intended or not when they named Free 
Press. But I have two items that I would like for Free Press to 
respond to on the record, and I know you won't have these 
figures with you here today. So if you can provide those in 
writing I would appreciate it.
    The first is how many fundraising emails your organization 
sent regarding net neutrality and the open internet rules 
within the--in the last two years, and second, how much money 
Free Press raised through those emails?
    I want to highlight the fact that Free Press, Flight for 
the Future, and other groups exist by dividing Congress on this 
issue. During the February 7th hearing, as soon as a 
representative from the majority said he or she would like to 
work on bipartisan legislation they were--from the minority, I 
think, they were immediately attacked by you on Twitter and you 
attacked me on Twitter right after that hearing.
    Attacking people is the only thing Free Press does where 
they seem to think they need to operate in a bipartisan 
fashion--where they need Republicans, which is somebody to 
attack, and I think all Members of the committee should be wary 
when an organization says compromise and bipartisanship is the 
enemy, especially if their financial interests are involved.
    And I hope you would follow Ms. Ochillo's lead and quit 
attacking people on Twitter when we are trying to do things in 
a bipartisan fashion and, as she says, in the spirit of 
compromise.
    I yield back.
    Mr. Doyle. I guess that wasn't a question, pardon me?
    OK. The gentleman yields back.
    Mr. Long. It was a question. I said I would like for him to 
respond in writing, so I yield back.
    Mr. Doyle. OK. Thank you.
    The Chair now recognizes the vice chair of the full 
committee, Ms. Clarke, 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman. I thank you 
for holding this hearing. I thank our witnesses for their 
expertise today.
    And I just want to say I don't know why Ms. Ochillo's name 
was even raised in that last piece that you had. We should 
restrain ourselves from trying to contrast and compare 
panelists. It is not a good thing. People can get confused from 
what was being said.
    Mr. Long. Will the gentlelady yield?
    Ms. Clarke. I will.
    Mr. Long. I didn't intend to cast any aspersion on Ms. 
Ochillo and I know she doesn't----
    Ms. Clarke. It came across that way, sir.
    Mr. Long. Well, I apologize because she does not--I knew 
she didn't attack people on Twitter.
    Ms. Clarke. Thank you. That is all I needed was the 
apology. OK. Very well.
    Mr. Long. I wanted her to say, I don't attack on Twitter--
--
    Ms. Clarke. Yes.
    Mr. Long [continuing]. Because I don't think that is a 
good----
    Ms. Clarke. I understand that. But we are in a hearing 
where we are trying to make sure that the record is accurate. 
And so I appreciate your apology, Mr. Long.
    Mr. Long. I yield back.
    Ms. Clarke. Let me get to my questions. So, Mr. Wood could 
you remind the committee of some of the historical net 
neutrality violations we have seen that the Save the Internet 
Act would actually address?
    Mr. Wood. Certainly. Thank you, Congresswoman Clarke.
    There have been several. There were some that happened 
before the decision that Commission McDowell referred to 
earlier.
    So, one of the most famous ones was Comcast was actually 
blocking video not from a competitor but, really, from any 
streaming video service being sent over a file-sharing 
application called BitTorrent. Before that we saw local phone 
companies in rural areas blocking Vonage and other VOIP 
applications.
    More recently we saw AT&T not allow usage of FaceTime on 
mobile networks unless people were willing to pay more money 
for that privilege and, in fact, you pay an unlimited--pay for 
an unlimited voice plan.
    So, we have seen a lot of these kinds of transgressions 
even with the rules in place or principles in place throughout 
the last decade and a half.
    Ms. Clarke. Very well. And in your prepared testimony you 
described the ability of the Save the Internet Act to protect 
marginalized communities by repealing the 2017 FCC order and 
returning to the regulatory framework outlined in the 2015 Open 
Internet Order.
    Can you expand on the role Title II Section 202 of the 
Communications Act plays in protecting marginalized and low-
income communities?
    Mr. Wood. Certainly. Thank you again.
    So what we want to have and make sure that we have is 
nondiscrimination protections for anything someone says, not 
just for competitors. I think sometimes net neutrality is cast 
as some sort of battle between Comcast and Netflix or between 
AT&T and Google.
    And, really, what we think it is is a guarantee for every 
internet user's right to see and say what they want online. So 
we have examples of this--actually, other services sometimes.
    Verizon blocked text messages about abortion rights at one 
point in 2007, I believe. It could have been a year or two off 
of that.
    And actually, NARAL and the Christian Coalition came 
together and said, this is the last thing we want. We can't 
have carriers dictating what we can say to our members.
    So that was a Title II service at that point in time, or 
arguably one, in text messaging and sometimes ISPs will say why 
would we block things for political purposes. It is exactly the 
same kind of decision that we see them making at times.
    If they think something will be unsavory to their users, 
they might decide to block it or treat it in a less favorable 
fashion and we can't afford that.
    Ms. Clarke. Very well.
    Ms. Ochillo, in your opinion, does this seem reasonable for 
one of the approximately 24 million Americans without access to 
broadband to file an antitrust suit against a major ISP?
    Ms. Ochillo. Absolutely not, and I do want to point out 
that NHMC last year pointed out--I actually visited a lot of 
offices here on the Hill just to raise that the FCC at some 
point had an ombudsperson who was able to at least receive the 
open internet complaints and at least help people navigate that 
process. But, in general, consumers don't have any recourse and 
wouldn't know who to call.
    Ms. Clarke. Very well.
    Mr. Green, can you--there was something in your testimony 
that you said earlier I need a little clarification on. Aren't 
enterprise broadband services, while not under the Open 
Internet Order, still under the nondominant carrier Title II 
just as broadband internet access service is?
    Mr. Green?
    Mr. Green. I thought you said Mr. Wood. I am sorry.
    Ms. Clarke. No, I am sorry. Mr. Green. Let me repeat.
    Aren't enterprise broadband services, while not under the 
Open Internet Order, still under nondominant carrier Title II 
just as broadband internet access service is?
    Mr. Green. They are.
    Ms. Clarke. Very well.
    Mr. Chairman, thank you very much. I yield back the balance 
of my time.
    Mr. Doyle. I thank the gentlelady.
    The Chair now recognizes Mrs. Brooks for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman and Ranking Member 
Latta, and thank you to all the witnesses for being here today.
    I apologize I have not been able to be here. I have been a 
part of a hearing on Select Committee on the Modernization of 
Congress where technology has been a big part of that hearing. 
So we have been hearing from Members all morning and it just 
finished, so I apologize.
    I do feel a little bit like in a bit of deja vu right now 
because, I feel like we had discussions about this about a 
month ago, and I just want as members of the committee to know 
that I believe all of us support a free and open internet that 
has proper transparency protections to ensure there is no 
blocking and throttling, and I know we are debating a bill that 
I wish was not partisan--that I do wish and I heard when the 
hearing began we need to end the ping ponging on this issue 
and, I think the country really is demanding that.
    But I think right now, as I understand it, the bill that is 
before us has no chance of really being taken up by the Senate 
or being signed by the president. So, we need to move forward.
    And one of the reasons we need to move forward I am a 
cofounder of a 5G caucus here in the House of Representatives 
and we have got to stop fighting about this in the country.
    We have got to get our act together as a country, so we are 
not falling behind the rest of the world and falling behind 
many other countries that are going to beat us in this next 
round of technology called 5G.
    So, I have been proud to work with colleagues on both sides 
of the aisle on some of these issues. I want to continue do to 
that.
    I guess I would like to start out, Mr. McDowell, and would 
ask all of you actually what impact would, if you were to 
restore the FCC's 2015 Open Internet rules, have on the 
likelihood that U.S. will be able to lead the world in the 
deployment of 5G network and services, something I think we all 
need to be very focused on?
    Mr. McDowell. First of all, congratulations on founding the 
5G Caucus. I think that is very important.
    Mrs. Brooks. And for the record, I founded that with 
Congresswoman Debbie Dingell, also Congresswoman Annie Kuster 
and Congressman Tim Walberg.
    So, we are going to be focused on this. We have to be 
focused on this as a country. It is a bipartisan caucus. I 
encourage my colleagues to join the caucus.
    But let us talk about how what we are talking about could 
have an impact on our global competition to be a leader in the 
world on 5G, and I will start with you.
    Mr. McDowell. And so the U.S.'s leadership in 5G is by no 
means a foregone conclusion. It is not inevitable, and you are 
right to call that into question. There is a lot that has to be 
done as we spend maybe $300 billion or more over the next six 
or seven years as a country to build out 5G.
    So when you are raising that kind of capital, you are going 
to get questions from lenders, from investors, of all stripes 
as to what are the potential economic effects of the economic 
regulation of Title II. And Title II, make no mistake, is a 
statute all about economic regulation. That is exactly what it 
is.
    So that could cause a stutter step, as we have seen 
evidence in the record thus far with the smaller ISPs--for not 
just smaller ISPs in the 5G space but the larger ones as well. 
So that kind of uncertainty is not what we need to win the race 
to 5G.
    Mrs. Brooks. I guess I would ask some other panelists how 
would you assure me and assure those of us who are trying to 
promote 5G that this type of regulation would not impede 5G 
implementation.
    Ms. Ochillo?
    Ms. Ochillo. I don't think that net neutrality regulations 
impede it. However, I do want to acknowledge that a lot of 5G 
is based on actually some paid prioritization networks.
    5G, I think that people forget, is based on fiber wireline 
in the ground and, essentially, we have to create incentives 
for companies to want to go into places, especially hard-to-
reach rural communities, poor communities where they are not 
getting the same return on those--that investment.
    I think that we can create incentives from both the Federal 
and State Governments by saying if you want to get a permit to 
lay wire in this district then you also have to lay it these 
other two.
    I think that there are other creative ways that we can 
think about this rather than saying that net neutrality is 
closing a door, because if we are giving access to people with 
net neutrality by saying here, here is something that everyone 
should have access to this universal platform and, 
concurrently, the United States is working on becoming a leader 
in the 5G network, that does not mean that they have to compete 
with one another.
    They might complement one another. But that is going to 
take some creativity and a commitment from the Federal and 
State Governments.
    Mrs. Brooks. Thank you.
    Mr. McDowell, I keep hearing the word balance more around 
this debate. Given that you think no legislation is needed to 
ensure the rights of consumers with broadband investment, what 
do you think the FCC should do to prevent throttling, blocking, 
or prioritization, looking forward?
    Mr. McDowell. Those concepts are all about competition or 
what's anti-competitive, right. So, I think Section V of the 
Federal Trade Commission Act covers that, as do other antitrust 
statutes.
    What is important to understand, too, about the FTC, a 
consumer doesn't have to file an antitrust complaint. The FTC 
is a consumer protection agency and thousands of times a year 
responds to average everyday consumers and acts on their 
behalf.
    It has, you know, over $300 million and 600 lawyers to do 
just that and that is what they do. You don't need to be 
spending any money as a consumer or worry about time. That is 
precisely what it does. That is where broadband internet access 
services are today is at the Federal Trade Commission.
    Mrs. Brooks. Thank you. I yield back. I am out of my time. 
Thank you. I yield back.
    Mr. Doyle. The Chair recognizes Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    I really agree with my colleague, Mrs. Brooks, about the 
need to get some certainty here and, I really think it is 
important. But I need--when we look at certainty, we need to 
make sure that we are putting the rights of the consumers and 
of access first that is what I really think.
    But I was so happily reminded by my staff that I was on the 
Energy and Commerce Committee in 2005 when Chairman Martin 
issued his first version of the net neutrality rules.
    Then I was still on the subcommittee in 2010 when Chairman 
Genachowski issued his version of net neutrality rules. And 
then now I was still on the committee in 2015 when Chairman 
Wheeler issued his version of the rules.
    And so we have had no shortage of creative approaches to 
this issue and, of course, we've had court decisions and other 
things that intervened.
    And I guess I want to ask--I want to start with you, Mr. 
Green. Would you say that this long-running process has created 
more or less certainty for your company, as you make your 
business plans?
    Mr. Green. I find it to have created less certainty on the 
long run. I certainly feel your pain in sitting through those 
number of changes.
    I would also add that around 5G, number one, we should 
thank the FCC for removing some barriers to open up things in 
the area of 5G so we should appreciate the FCC for the changes 
that they have made and acknowledge that.
    The other thing I would say is that, you know, this open 
internet--the very reason we are here today, it is a driving 
investment for 5G.
    I mean, open internet is a driver for 5G. So, I think it is 
very important to acknowledge it.
    Ms. DeGette. So would you agree with Ms. Ochillo that 5G 
and open internet are not necessarily counter to each other?
    Mr. Green. I would agree with that. I think open internet 
is another--first of all, the one thing you have with open 
internet is, you know, you have a common ground in terms of 
competition and then from there the competitive demands will 
drive--will drive one another.
    Ms. DeGette. Thank you.
    Mr. Wood, is there any reason you can see why Congress 
should start all over on a whole new bill?
    Mr. Wood. No, I don't believe so Congresswoman. I think 
that is the important part about compromise here and the 
legislative process.
    Sometimes I say if we want the same rights, we will have 
the same fights about these bills, and I think that is in my 
testimony. So, I don't think that the last 15 years have been 
legally certain. That is obvious. The rules have gone back and 
forth.
    Now, the FCC won when it used Title II and it lost the 
previous two times. But each time those three lawsuits were 
brought by cable and telecom providers or their lobbying 
associations.
    So if we are tired of ping pong, I would respectfully ask 
those companies to put down the paddle and just to keep 
investing as they have done throughout that time.
    The trend lines have been basically the same and the 
investment goes up and down over time because, as AT&T said, 
investment is cyclical. They actually called it lumpy.
    And, so companies invest and we are seeing the wireless 
companies ramp up their investments now for 5G.
    Ms. DeGette. But, you know, even for those companies, like 
Mr. Green's company, the lack of certainty has to be a real 
impediment.
    Mr. Wood. I think it is a factor. But we haven't seen it in 
the numbers at the FCC, what the companies tell their investors 
in analyst calls. Despite what Mr. McDowell said, we don't see 
analysts or the companies themselves, more importantly, saying 
there is an impact and we also see steady--not necessarily 
sufficient but steady improvement in rural areas, too, if we 
look at the FCC's deployment data.
    Ms. DeGette. Thank you.
    One last thing, and I know some of my colleagues talked 
about this, but my congressional district includes Denver, 
Colorado, which is one of the top places not only for telecom 
but also for Millennials moving there.
    And, whenever we talk about net neutrality this is the 
number-issue that my constituents raise. When I tell my 
colleagues this they can hardly believe it sometimes but it is 
the number-one issue for the constituents and what they are--
what they are saying is they think ISPs are a mean to an end, 
whether that is streaming music or movies or accessing my 
congressional website or whatever they are trying to do.
    So my question--my last question for you, Mr. Wood, is what 
does public opinion polling tell us about what average 
Americans think about net neutrality.
    Mr. Wood. Thank you.
    It is, remarkably, high the consistent level of support we 
saw last April. Eighty-six percent of people saying they 
supported keeping the FCC's 2015 rules and opposing that 
repeal. That included 82 percent of Republicans.
    I think most people think of this as common sense, and then 
when we talk about the edge providers as well, they do see 
internet access as a means to get there.
    I want to be clear. We don't have some sort of blank check 
for edge providers. We think that they are engaging in all 
sorts of abuses. But they are still different from the wire 
that gets you there and that is why people basically want and 
demand that these rules be restored and be put back the right 
way.
    Ms. DeGette. Thank you. Thank you, Mr. Chairman.
    Yield back.
    Mr. Doyle. I thank the gentlelady.
    The Chair now recognizes Mr. Butterfield for 5 minutes.
    Mr. Butterfield. Did we run out of the minority, Mr. 
Chairman?
    Let me just begin by thanking the four panelists for coming 
today and thank you so much for your testimony.
    Commissioner McDowell, I was listening very carefully to 
your opening statement and I just want to thank you for your 
thoughtful approach to the subject matter.
    You called for a bipartisan approach. You called for 
certainty, and I am going to do something I rarely do. I am 
going to take your opening statement home with me tonight and I 
am going to read it again.
    Mr. McDowell. I am so sorry.
    Mr. Butterfield. And so I thank all of you.
    [Laughter.]
    Mr. Butterfield. But, Commissioner McDowell, in 2015--and 
I, too, have been here under three chairs--Genachowski, 
Wheeler, and Chairman Pai.
    But in 2015, the--I think you had just left a year or two 
before then--the FCC forbore over 700 regulations that the 
commission had the authority to enforce under Title II.
    Will this bill as we know it make it more or less difficult 
for the FCC to utilize its forbearance authority on additional 
regulations in the future?
    Mr. McDowell. I will take it face value Chairman Doyle's 
assertion that the intent is to make it harder for the FCC to 
wiggle away from the parameters of the bill.
    But I will say this, as an attorney. There will be lots of 
lawyers trying to argue both sides of that. They will argue 
every word of it. So the uncertainty doesn't necessarily go 
away.
    Mr. Butterfield. Commissioner McDowell, ISPs have expressed 
concern that the additional regulations under Title II have a 
chilling effect on their ability to invest in the expansion of 
their networks, and I understand their anxiety. Even though I 
may not agree with it totally, I certainly understand their 
anxiety.
    How will this bill affect the deployment of rural broadband 
by ISPs?
    Mr. McDowell. We have seen in the FCC's record as well as 
your hearing a few weeks ago and throughout the debate concern 
by the smallest of ISPs.
    So perhaps we can all say that the big carriers can take 
care of themselves. Actually, most of them are engaging in M&A 
in areas outside of broadband in order--which can also distort, 
by the way, their CAPEX figures.
    But the smaller ISPs I think are genuinely, sincerely, and 
verifiably very concerned about the questions they will get 
from lenders and that is in the record. It is under oath. It is 
in a lot of different places.
    Mr. Butterfield. Mr. Wood, if I can address this to you, 
sir. Historically, the FCC's policy positions have changed with 
each administration. Will this bill provide ISPs and other 
stakeholders with the regulatory certainty to innovate and to 
invest?
    Mr. Wood. Yes, Congressman. Thank you for the question.
    I believe it will. I would not quibble with the 
characterization, but I would alter it perhaps slightly to say 
that the FCC hasn't changed policies.
    It has just changed the legal grounds on which it has 
founded those policies. And so when the FCC tried to adopt the 
internet principles--open internet principles in 2005 and 
grounded those on Title I, they failed in the court of law.
    The same thing happened with the Genachowski administration 
or the Genachowski FCC. They, once again, were struck down in 
court. They came back with essentially the same principles.
    There had been some changes in the wording and the rules 
over time. But we have had the same kind of principles that the 
FCC has tried to enact three times and they finally got it 
right on that third try and were upheld in court two times.
    Mr. Butterfield. All right.
    Ms. Ochillo, thank you for your testimony. In your 
testimony, you remarked that the way in which we decide to 
regulate the internet will have a direct impact on broadband 
adoption and access.
    How will this bill create opportunities for communities of 
color and help to eliminate disparities that you and I know 
exist in broadband access?
    Ms. Ochillo. I think that it is important--thank you very 
much for the question, Congressman.
    I think that it is important to put net neutrality 
protections in statute, and I think at this point we need to be 
very aware of the fact that the people who are left behind in 
the digital divide don't have an opportunity to come into this 
space and to, basically, fend for themselves.
    And our organization is constantly just trying to explain 
if we are not aggressive about saying we need to actually make 
sure that no one can have discriminatory practices to make sure 
that access is a priority for Congressmen, for everybody, 
whether it is a provider, for everybody.
    There is actually a cost when people can't get online, and 
I think that it is important for us to support this type of 
legislation because at least it gives people an opportunity to 
acknowledge that the internet is like a utility.
    It is something that everyone needs, and the truth is that 
even the FCC has acknowledged that it is essential for every 
single part of daily life, and I think that this is something 
that supports that proposition.
    Mr. Butterfield. Thank you.
    Thank you, Mr. Chairman. I yield back 16 seconds.
    Mr. Doyle. I thank the gentleman and I would comment that 
while my good friend, Mr. McDowell, acknowledges that the bill 
would make it--would make it--prohibit forbearance--
unforbearing what has been forbeared in the order that we all 
understand his comment that an attorney will argue anything as 
long as someone will pay him to do it.
    So, I think that is something we are never going to change 
no matter what the bill looks like. But I thank the gentleman.
    Mr. Schrader, you are recognized for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman.
    I just want to thank you for bringing the bill to the 
hearing here. It is a good opportunity for us to have this 
debate. The testimony has been informative for me at least and 
I look forward to moving on and hopefully come to some 
bipartisan agreement, as everyone has talked about, at some 
point in time.
    The best legislation stand the test of time through various 
administrations and different Commissioners. It would be best 
if we actually got together and tried to come up with a 
compromise that would work for everybody out there because we 
all do want a free and open internet, at the end of the day.
    With that I yield back, Mr. Chairman.
    Mr. Doyle. I thank the gentleman.
    I see that Mr. Welch has entered the room and he is 
recognized for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman.
    And by the way, I really appreciate the work you are doing 
in leadership on this. We have got a--and I missed some of the 
testimony but watched some of it on TV.
    Mr. McDowell, it is good to see you back.
    You know, the bill that we have--I know you have discussed 
this--but it really seems practical to me. There is uniformity 
that we don't want blocking or throttling or some of the other 
things.
    We also don't want the heavy hand of regulation, and what I 
thought was very wise about the proposal here was that we 
guaranteed there would not be all the Title II concerns and 
that was in response, frankly, to a lot of our colleagues and 
some of the folks in industry expressing apprehension about the 
uncertainty with the potential of heavy-handed Title II 
regulation.
    I wasn't fearful of that. You know, Mr. Wheeler, when he 
was the head of the committee or when he was the Chair forbear 
but--trust but verify. So this to me, makes a lot of sense, and 
I hope that we ultimately can proceed.
    But so thank you, Mr. Doyle, on that.
    I want to go to Mr. Green. I think you have been asked this 
already but I would like to hear it again because a lot of the 
argument that we have had here is about this crucial question 
of how we deploy broadband and the apprehension that some folks 
have that unless there is certainty it will inhibit the 
deployment of broadband.
    That is an incredible concern to Republicans and Democrats 
on this committee who represent rural areas because we have 
been left behind and it is intolerable.
    So you were investing before under the old rules and you 
are investing now under the new rules, and I would like you to 
just elaborate on that because I think all of us, at the end of 
the day, want to be confident that there is going to be 
investment to deploy broadband.
    Mr. Green. Thank you for your question, Congressman.
    We have had excellent success and we have been very 
fortunate, and we have been blessed. I always like to mention 
that because that is my higher calling, from my perspective.
    But we have $30 million of fiber assets in the ground 
today. We started in 2010. I am just an old telecom guy from 
Spokane, Washington, and Coeur d'Alene, Idaho.
    But the investments at the moment--to answer your question 
more specifically, we have $10 million of backlog, meaning we 
have $10 million of customers who have requested services from 
us to reach to internet and at the moment we are deploying that 
capital so that we can get those customers connected to the 
internet.
    So, we are having great success. If you look at the fact 
that we have $30 million in the ground and in the last year we 
created another $10 million of demand, that is, obviously, 
telling you the demand is great and it becomes greater and 
greater every day.
    It is a combination of 5G. It is a combination of, you 
know, the cloud, streaming, all of those sorts of things. And 
so we are having excellent success and have had excellent 
success during the tenure of our company and, certainly, from 
the Act of 2015.
    Mr. Welch. So this Act in your view, would not--this 
proposal by--authored by Mr. Doyle would not inhibit your 
plans, going forward?
    Mr. Green. Not at all.
    Mr. Welch. All right.
    You know, my goal here on the committee with respect to 
internet has been to do two things: expand broadband in rural 
areas and across the country and, second, guarantee that the 
internet remains free and open. I think we are all on the same 
page on that.
    But in my rural State, we are not debating 5G. We are 
dealing with no G in many places, and it has got to be a 
decision that we make in this Congress as to whether we are 
going to treat internet much like we did electricity in the 
1930s.
    And there is not an economic case to be made to put it out 
in rural America but there is a social case to be made. We are 
all in it together or we are not.
    Do you see having clarification about these rules that are 
codified in this proposed legislation as being helpful to 
accomplish that?
    I will ask you, Mr. McDowell. I will let you weigh in on 
that.
    Mr. McDowell. So first of all, let me say something at the 
outset, which is--and I know we don't have much time but that 
open internet and Title II don't have to be synonymous or 
exclusively synonymous to each other.
    From the time the internet was privatized in the mid-90s 
until the 2015 Title II order, we had an open and freedom-
enhancing internet. I think that is very important.
    It has just been raised here a few times that the only way 
you can have an open internet is by bringing in Title II. You 
might be able to bring up a principle of Title II. I think it 
is better to start with the 2005 principles from Chairman 
Powell.
    But Title II is not synonymous with an open internet and 
brings in a whole host of collateral circumstances and 
unintended consequences.
    So that is what provides a lot of investment uncertainty or 
just operational uncertainty, going forward, especially as 
ISPs, as was said earlier, are merely a means to an end.
    Actually, ISPs are converging into many business lines and 
offering multiple services and benefits to consumers just the 
way edge providers are providing not just content and apps or 
algorithms but also delivery systems.
    So as you see this convergence I think it is important for 
this committee to take that into account as you come up with a 
new piece of legislation.
    Sorry, Mr. Chairman.
    Mr. Welch. I yield back.
    Mr. Doyle. The Chair now recognizes Mr. Cardenas for 5 
minutes.
    Mr. Cardenas. Thank you, Mr. Chairman. I appreciate the 
opportunity for us to talk on this bill and have a better 
understanding of what is going on out there and how we are 
going to effectuate change, especially when it comes to 
consumer protections.
    One of the goals of this legislation is to codify the 
provision of the 2015 rules that forbears 700 regulations from 
applying to internet service providers.
    During the last hearing here, former FCC Chairman Wheeler 
argued that some of the most onerous provisions of the Title II 
regulation don't make sense for the internet, which is why the 
FCC forbore these provisions in the 2015 order.
    This component is important to balance consumer protection 
while also ensuring business can invest and build their 
networks on consumers, which have great products to choose 
from.
    So Mr. Wood and Commissioner McDowell, if this bill is 
enacted into law, could any future FCC apply any of those 
regulations that have put in forbearance--that are putting in 
forbearance?
    Mr. Wood. You said my name first. I guess I will go first. 
Thank you, Congressman.
    I don't believe so. As we have heard, that could be 
litigated and that is, obviously, true. I would point to the 
decades of lucrative litigation after the '96 Act to reinforce 
Chairman Doyle's notion that any new bill could be litigated. I 
think this one is actually very tightly written, though, and 
would prevent that kind of retreat by the FCC.
    Mr. Cardenas. So, you see that this bill would protect 
against that if it comes along?
    Mr. Wood. I think that is exactly what it says, that it 
would basically ratify the 2015 decisions and make those part 
of the statute or part of a congressional enactment rather than 
leaving it to the FCC to strictly determine forbearance.
    I should say that over the years that is what they have 
done. They have forborne from wireless voice and from 
nondominant carrier regulation of broadband when it sold to 
businesses. So, we do have a track record of that. But this 
will would make Congress giving the stamp of approval to that.
    Mr. Cardenas. Thank you.
    Commissioner McDowell?
    Mr. McDowell. Given sort of the long lens of history and 
the history of common carriage regulation, I would say not--
that actually history--the trajectory of history is on the side 
of sort of a one-way ratchet of common carrier regulation--that 
once you have some you are going to get more.
    So, I would respectfully say that this bill actually would 
open the door and not close the door to more regulation.
    Mr. Cardenas. Yes. OK. Do you have an opposite answer to 
Mr. Wood?
    Mr. McDowell. No.
    Mr. Wood. That is right. We never disagree. You always used 
to talk about the bipartisanship at the FCC, right? It is 95 
percent of the time we agree.
    Mr. Cardenas. OK.
    Mr. Wood, can you talk about how Lifeline broadband was 
provided before the 2015 rules?
    Mr. Wood. Before the 2015 rules, sure.
    The FCC has, for some time, been asking this question and 
before they reclassified basically the FCC was relying on 
Section 706 and other authorities it has to say, well, we can 
provide support at least for telecom companies because that is 
the way the Universal Service statute is written. You have to 
be an eligible telecommunications carrier.
    So basically, the FCC allowed telephone companies to 
provide Lifeline but it didn't have great mechanisms for 
requiring that they do. We think the 2015 order actually got 
that right and treated broadband as a telecom service.
    And now, not only has the Pai FCC walked away from Title 
II, they have also said Section 706 is not a source of 
authority. So now we are not really sure what they can do at 
least on a solid legal basis, speaking of litigation.
    Mr. Cardenas. Can you give an example on what--on what way 
the 2015 rule has impacted the Lifeline program?
    Mr. Wood. Well, I think we talked about this a bit earlier. 
I know Ms. Ochillo talked about it, too. There were nine 
providers who were offering a broadband only progress, or at 
least plan to.
    I believe one of them had launched service in Queens, New 
York, and they were cut off from the program because the FCC 
basically said, we have no way of funding you anymore if you 
are not an eligible telecommunications carrier, to use the 
words in the statute in Title II.
    Mr. Cardenas. So this legislation, if enacted into law, Mr. 
Wood, it would affect--in your opinion it would affect the 
opportunity for Lifeline programs in a good way, to flourish 
more, or would it limit them?
    Mr. Wood. I think it would clarify that broadband is a 
telecom service and fully eligible for eligible 
telecommunications carrier status and, thus, for support under 
the deployment aspects and also under the Lifeline program and 
Universal Service.
    Mr. Cardenas. OK.
    Mr. McDowell. But just so there is no confusion, under the 
second Obama--the first Obama term, FCC, in 2011 and early 2012 
we expanded Lifeline support and other Universal Service 
support to broadband, right. So that was before the 2015 Title 
II order at the FCC. So, I want to make sure folks are 
understanding that Lifeline is supported even if it is not a 
telecommunications service.
    Mr. Wood. And I would just ask under what authority that 
step was taken. If it was Section 706 or if it was Section 254 
or some other sort of murkier cloud of authority.
    Mr. McDowell. All of the above. That case went to the 10th 
Circuit under a variety of theories and survived appeal.
    Mr. Cardenas. Mr. Wood? What section do you----
    Mr. Wood. I think it survived appeal because they had 706 
and how this FCC has said not only do, we not want to use Title 
II, we don't think Section 706 is a grant of substantive 
authority. So now I am not really sure what is left--what 
survived in the 10th Circuit--if we actually see another 
challenge to that.
    Mr. Cardenas. So with what time I have left, Mr. Chairman, 
I think it is important and I thank you, Mr. Chairman, for us 
taking on this responsibility because when we don't do our job 
as a legislature then we leave the appointed officials to do 
the job.
    So thank you very much, Mr. Chairman. I yield back.
    Mr. Doyle. I thank the gentleman.
    I don't want anyone to think that we are ignoring Mrs. 
McMorris Rodgers over here. But she is going to waive on to the 
committee and under our rules she would be entitled to speak 
after all Members of the committee have spoken.
    So, Mr. Lujan you have 5 minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman, and to our 
ranking member for holding this important hearing.
    Mr. Wood, yes or no--does Mr. Doyle's legislation prevent 
internet service providers from blocking content?
    Mr. Wood. It does. It restores the rules.
    Mr. Lujan. Yes or no--does this legislation prevent the 
throttling of content?
    Mr. Wood. Yes.
    Mr. Lujan. Yes or no--does it prohibit paid prioritization?
    Mr. Wood. Yes.
    Mr. Lujan. Yes or no--does the Republican proposal clearly 
prevent blocking, throttling, and paid prioritization?
    Mr. Wood. Some do that. They have some different 
approaches. Some say they would prohibit other behaviors and 
some actually do try to adopt the three bright line rules but 
in ways that we think are not sufficient to fully protect 
internet users.
    Mr. Lujan. Yes or no--am I correct that Mr. Doyle's 
legislation prevents the FCC from applying 700 regulations 
under the Communications Act?
    Mr. Wood. Yes. I think that is the count.
    Mr. Lujan. Beyond that, though, does Mr. Doyle's 
legislation include any other provisions that would 
unreasonably or needlessly handcuff the FCC including the 
authority to engage in rulemaking, going forward?
    Mr. Wood. No, I don't believe so and I think that is key--
that rulemaking authority is preserved, and the FCC isn't 
handcuffed in doing its job to implement the statute.
    Mr. Lujan. Yes or no--is that true of the proposals 
introduced by my Republican colleagues?
    Mr. Wood. Again, I think they differ in some respects from 
each other. But no, it is not true, as a rule.
    Mr. Lujan. Let us put aside the legislation before us 
today. Do you think it would be reasonable for Democrats as 
part of free and open internet, meaning no blocking, no 
throttling, and no paid prioritization to trade codifying those 
provisions for a Federal Communications Commission without 
meaningful rulemaking authority, going forward?
    Mr. Wood. No, I don't believe that would be a wise trade.
    Mr. Lujan. Why not?
    Mr. Wood. Well, we talked about a lot of the things the FCC 
does outside of net neutrality under Title II. So, the Lifeline 
discussion with Mr. Cardenas and the rest of Universal Service 
was a good example of that.
    But then there are also these questions that the FCC was 
trying to answer and needs to be able to answer about whether 
or not discriminatory conduct is in fact unreasonable even if 
it doesn't fit neatly within one of the bright line rules.
    So, we don't see that as a problem. In fact, we see that as 
necessary--that the FCC had some residual authority as it is 
granted in Section 202 of the Communications Act to assess 
other kinds of unreasonable behavior even if they don't fit 
into the bright lines that this body may draw at some point in 
their future.
    Mr. Lujan. Those were very similar points that I raised 
during the 2015 hearings on this particular subject. There was 
either markup or hearings on legislation of interest by 
Republican colleagues and this was an area that I focused on 
from a rulemaking perspective.
    On another subject, can you also tell us why 
interconnection protections are so important?
    Mr. Wood. Sure. So what we have seen in the last half 
decade or so as occasionally or probably even more than 
occasionally but one especially well-documented period, 
millions of internet users were not getting the content that 
they had chosen to receive at the speeds that they deserved, 
and that wasn't because of congestion in the last mile, as it 
is sometimes called, but congestion outside of the network that 
comes to your home--the last mile of broadband network. And 
there were some disputes about what was causing that.
    We think the evidence shows that companies like Comcast, 
AT&T, and Verizon were choking off the flow of information at 
that point and then they demanded payments in some cases, 
struck deals with not just Netflix but also other kinds of 
carriers, and that resolved the situation at least to our 
knowledge.
    But we think there has to be some sort of oversight of that 
kind of behavior, and I think to your rulemaking point, too, 
this is exactly why we need it. You know, we have heard a lot 
about the FTC today and under context one of the things people 
note about the FTC is that it is not always able to do the best 
job it could do because it lacks rulemaking authority.
    So while we talk about granting rulemaking authority to the 
FTC at times, I think we have to remember we shouldn't take it 
away from this agency to address these kinds of new problems 
and new impacts on internet users, and that is why this bill is 
actually the right way to go to keep that residual substantive 
authority as well as the agency's discretion to implement it.
    Mr. Lujan. Commissioner McDowell, are interconnections 
important to small ISPs across America?
    Mr. McDowell. Absolutely. Interconnection is an important 
part. Interoperability as well as standards. All related.
    Mr. Lujan. What are your thoughts with the importance of 
inclusion of interconnection protections to ensure that smaller 
ISPs are able to survive?
    Mr. McDowell. So what happened since the internet was 
privatized in the mid-1990s until the Title II order of 2015 is 
that you didn't have Title II governing that, right. So, you 
had a thriving internet marketplace with ISPs, small WISPs, et 
cetera, even in New Mexico, without Title II.
    So why was that? Well, you had----
    Mr. Lujan. Well, being a former utility Commissioner myself 
I can tell you that many of those ISPs had to go before the 
local utility commission and the committee--the commission 
itself had to require some of those interconnection agreements 
be enforce because of the lack of rule of law.
    Mr. McDowell. Well, in that there were Title II common 
carrier transition components that they were either leasing or 
offering themselves. That is where the common carriage came in. 
That is where state jurisdiction came in--mostly the Title II 
transition component of all that.
    But there is Section I and II of the Sherman Act, Section 
III of the Clayton Act, Section V of the Federal Trade 
Commission Act. All of that could help in that regard.
    Mr. Lujan. OK.
    Mr. Chairman, I will be submitting a question to the record 
for Ms. Ochillo based on her profound testimony as well, 
especially looking at comparison between New Mexico and New 
York and I very much appreciate where that testimony is going.
    So thank you, Mr. Chairman.
    Mr. Doyle. I thank the gentleman.
    The Chair now requests unanimous consent to allow Mrs. 
McMorris Rodgers to waive onto the committee. Without 
objection, so ordered.
    And I now recognize her for 5 minutes to ask questions.
    Mrs. McMorris Rodgers. Thank you, Mr. Chairman. I 
appreciate you being willing to have me join you all today and 
I continue to seek a bipartisan solution to address this issue 
of net neutrality and I believe that there is bipartisan 
support for the bright lines for, you know, making clear no 
blocking, not throttling, nor paid prioritization.
    I am very disappointed to see the majority moving forward 
without really seeking a bipartisan solution. It is clear that 
this bill will not go anywhere in the Senate and if it is as 
dire as the other side continues to suggest, then I would--I 
would implore this committee to come together in a bipartisan 
way.
    I believe that there is really an opportunity for us to 
come together and stop politicizing this issue. What we 
continue to see is a lot of rhetoric around net neutrality that 
has really been driven to a fever pitch.
    We see dire predictions as to the end of the internet. We 
saw threats against the chairman of the FCC and his family--
death threats--as well as some of our own colleagues.
    And if it were truly the crisis that it is made out to be, 
I believe that there should be more willingness to solve it 
instead of moving ahead with a partisan approach.
    This bill is not going to pass the Senate. It is not going 
to be signed into law and it is not really intended to do that. 
It is apparent the goal is not about protecting consumers, 
innovation, and internet. It is about scoring political points.
    For those who say they want to save the internet, however, 
in the time since Title II was repealed, network speeds are up 
drastically. Investment in coverage in rural areas has 
increased.
    As we work to continue to close the digital divide, we need 
to decrease barriers to deployment, not increase them. I agree 
we need to protect consumers. But we also need to do it in a 
way that does not leave underserved areas of our country 
behind.
    I represent a rural area of eastern Washington where we 
continue to have broadband needs and we need more deployment. 
Republicans for years have been offering to work with the 
Democrats to find an agreement only to be blocked and denied 
again and again.
    Earlier this year, Mr. Walden, Mr. Latta, and I introduced 
three separate reasonable solutions to protect consumers and 
ensure the internet remains free and open.
    My bill is based upon a law that passed in Washington State 
with overwhelming bipartisan support, signed into law by 
Governor Jay Inslee. It gives the FCC clear authority to 
enforce the bright line rules of net neutrality--no blocking, 
no throttling, no paid prioritization.
    It is a solution that does not institute changes to the 
internet that would stop innovation, stifle broadband 
deployment and leave millions of Americans behind.
    If my friends on the other side would like changes to my 
bill or others, we need to have that conversation. Let us work 
together. It is time to end the regulatory and legal confusion 
and bring certainty to consumers and the marketplace.
    We want to guarantee that the United States remains a 
leader of technological innovation that we have been the last 
20 years. We want every American to have access to the internet 
and the economic and social and educational benefits that 
connection brings.
    We want to ensure that the next generation of networks 
originate here, ushering in a new era of technology that we 
can't even now imagine, and we should want to do it in a 
bipartisan way.
    As Senator Cantwell tweeted when the Washington State bill 
became law, quote, ``In our State, Republicans and Democrats 
came together. Why can't we see this same bipartisanship in the 
U.S. House?''
    And I would like unanimous consent to enter into the record 
various tweets of support from Republicans and Democrats for 
the Washington State law.
    Mr. Doyle. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mrs. McMorris Rodgers. Mr. McDowell, can you speak to the 
bipartisan consensus you saw around the issue, both at the 
commission and here in Congress prior to Wheeler's FCC move to 
reclassify broadband under Title II in 2015?
    Mr. McDowell. Sure. In 2005, which was about a year before 
I got to the FCC under Chairman Powell, there was unanimous 
bipartisan adoption of the internet freedom principles--the 
consumer kind of bill of rights for the internet, if you will, 
and I think that is what could be the starting point.
     Subsequent to that, though, you had bipartisan and 
unanimous votes after the Brand X decision, which was in June 
of 2005--the Supreme Court decision--making sure that it was 
clear that cable modem and broadband over power line and DSL 
and wireless broadband--all of those were properly classified 
under Title I and those were unanimous and bipartisan through 
the year of 2007.
    But I think what we have seen today and in other 
discussions is--you know, no anti-competitive conduct that 
involves throttling and blocking and prioritization that is 
anti-competitive, et cetera, I think those are great starting 
points forward. You could have an overwhelming bipartisan 
majority of both Houses.
    Mrs. McMorris Rodgers. Great. OK. Thank you.
    I will yield back and just urge again that we come together 
and do this in a bipartisan way.
    Mr. Doyle. I thank the gentlelady.
    Let me just say a few things. If the minority desires a 
bipartisan approach and wants to work with the majority, they 
should let us know about that. I got no phone call from the 
Chair or the ranking member of the subcommittee that they were 
interested in sitting down to discuss this.
    What we got instead was three bills that were dropped 
without our knowledge, without us being informed in advance 
that you were going to do that, and then we got a letter that 
we didn't know was coming also on it.
    I would suggest a better approach would be to sit down and 
talk with us before you drop bills. I know that after being in 
the majority for so long it might be difficult for some of my 
friends to recognize that they are not anymore and that the 
proper approach would be to talk to us before you drop bills.
    Let me say a couple other things, too. This has been tried 
a long time. We talk about the ping pong that has gone on, and 
it has. But, you know, when this was tried by the FCC under 
Title I back initially in 2005, eventually Comcast--it was done 
as not a rule but as a set of principles.
    But when it was put in real form Comcast sued and the 
commission lost. In 2010, once again, when the commission tried 
to do net neutrality rules under Title I, Verizon sued and the 
commission lost.
    Under 215, Chairman Wheeler again put net neutrality rules 
that were anchored under Title II and it survived two 
challenges in court. That is where we are today.
    What are Democrats doing with this bill? We are stepping 
towards our colleagues--our colleagues and people in the 
industry express concern that Title II with all its 
regulations, some which have no applicability to today's 
internet and the over 27 sections and 700 regulations, even 
though Commissioner Wheeler had forbeared on them that a future 
FCC Commissioner could unforbear, and that caused them great 
concern.
    So what we have done to address those concerns and step 
towards our colleagues is to codify the 2015 Open Internet 
Order, which also codifies the forbearance, which means those 
700 regulations in 27 sections are no longer applicable, and 
while my good friend, Mr. McDowell, says attorneys can file 
lawsuits, well, that is what attorneys do and no matter what 
bill was put forward that could happen.
    So this was a good faith effort to move in their direction. 
I would remind my colleagues that in the Senate for the CRA 52 
Members voted for the CRA in the Senate and that was before we 
have codified forbearance, basically eliminating 700 
regulations and sections under Title II.
    So, we are trying to work in a new way to put out a bill 
that recognizes some of the concerns we have heard from the 
minority and from some of those people in the industry and we 
are going to continue to move forward in regular order.
    We have had our hearing today. We intend to put this 
through a subcommittee markup and then a full committee markup. 
The minority will certainly have opportunities at that time to 
express their opinions and their amendments and we look forward 
to that.
    To the extent that they want to talk to us in advance about 
things we may be able to work on together, I would recommend 
that would be a good course of action.
    So with that, I am going to ask unanimous consent to enter 
the following documents into the record: Number one, an opening 
statement from Representative Eshoo, an editorial from the 
Houston Chronicle, an op-ed from The Hill, an LA Times 
editorial, a letter from ALLvanza, a blog from ALLvanza, 
statement from CTIA, a statement from the NCTA, USTelecom blog, 
tweet from Rick Boucher, Bloomberg article, Politico Pro 
article, Washington Post editorial, The Hill editorial, East 
Oregonian op-ed by Joseph Franell, Multichannel article, letter 
from TechFreedom to Chairman Doyle and Ranking Member Latta.
    Is that everything? Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. I want to now thank the witnesses for their 
participation in today's hearing. We appreciate your testimony 
and we appreciate how patiently you have sat there and answered 
every question that was thrown at you, and it has been very 
helpful to this committee.
    I want to remind Members that pursuant to our committee 
rules they have 10 business days to submit additional questions 
for the record to be answered by the witnesses who have 
appeared, and I would ask each witness to respond promptly to 
any such questions that you may receive.
    [The article appears at the conclusion of the hearing.]
    At this time, the subcommittee is adjourned.
    [Whereupon, at 1:49 p.m., the committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
